No. ____
IN THE

Supreme Court of the United States
_______________

LOWNDES COUNTY HEALTH SERVICES,
LLC D/B/A HERITAGE HEALTHCARE
AT HOLLY HILL,
v.

Petitioner,

GREGORY COPELAND, INDIVIDUALLY AS SON
OF BOBBY COPELAND, AND MARIER HOUSE,
AS ADMINISTRATOR OF THE ESTATE OF
BOBBY COPELAND, DECEASED
Respondents.
______________________

On Petition for Writ of Certiorari to the
Supreme Court of Georgia
_________________________________________________
PETITION FOR A WRIT OF CERTIORARI
_________________________________________________
Philip S. Goldberg
Counsel of Record
SHOOK HARDY & BACON, L.L.P.
1800 K Street, N.W., Suite 1000
Washington, D.C. 20006
(202) 783-8400
pgoldberg@shb.com
Counsel for Petitioner
May 6, 2021

Christopher E. Appel
Kateland R. Jackson
SHOOK HARDY & BACON, L.L.P.
1800 K Street, N.W., Suite 1000
Washington, D.C. 20006
(202) 783-8400
cappel@shb.com
krjackson@shb.com
R. Page Powell, Jr.
HUFF, POWELL & BAILEY, L.L.C.
999 Peachtree Street, Suite 950
Atlanta, GA 30309
(404) 892-4022
ppowell@huffpowellbailey.com

QUESTIONS PRESENTED
In Batson v. Kentucky, 476 U.S. 79 (1986) and its
progeny, the Court set a three-part test for ensuring
a party does not racially discriminate in exercising
peremptory strikes against prospective jurors. Under
step two, striking counsel must give a race-neutral
explanation for the strike, but the Court has never
defined the substantive or procedural requirements
for assessing race neutrality. Also, the Court has
suggested, but not ruled, that the U.S. Constitution
bars any discrimination “on the basis of race,”
irrespective of the race of the parties and jurors.
Flowers v. Mississippi, 139 S. Ct. 2228, 2234 (2019).
Respondents provided a facially race-based
explanation for striking a prospective juror. This civil
case involves African-American plaintiffs whose
counsel used all six peremptory strikes to remove
Caucasian jurors. For one juror, Respondents’
counsel acknowledged the strike was based on race:
demographic research on the juror’s place of
residence suggested “that may not be an area that is
friendly to African Americans, which [plaintiff] is.”
Counsel also asserted the juror’s “blue collar
employment” suggested the juror “may have some
innate prejudice” toward Respondents. Here, Georgia
courts allowed the strike to stand, conflating race
neutrality with pretext and stating counsel
mentioned only the race of their client, not the juror’s
race; the suggestion being that Batson applies only to
discrimination based on the prospective juror’s race.
The questions presented are:
1. Whether striking a juror based on allegations
of racial prejudice, when unsubstantiated, is

ii
not a facially race neutral explanation under
step two of Batson’s three-part test, regardless
of whether the juror’s race is explicitly stated.
2. Whether compliance with step two of Batson’s
three-part test requires a distinct inquiry into
the facial race neutrality of the explanation, is
a prerequisite for advancing to step three, and
is subject to a de novo standard of review.

iii
PARTIES TO THE PROCEEDING
The parties to the proceeding below are listed on
the caption.
RULE 29.6 STATEMENT
Lowndes County Health Services, LLC d/b/a
Heritage Healthcare at Holly Hill is owned 99% by
United Health Services of Georgia, Inc. and 1% by
Neil L. Pruitt, Jr. No publicly traded company owns
10% or more of the stock of Lowndes County Health
Services, LLC.
RELATED PROCEEDINGS


Lowndes County Health Services, LLC v.
Gregory Copeland et al., No. S20C0425,
Supreme Court of Georgia, grant of the writ of
certiorari withdrawn as improvidently
granted, entered December 7, 2020.



Lowndes County Health Services, LLC v.
Gregory Copeland et al., No. S20C0425,
Supreme Court of Georgia, grant of the writ of
certiorari, entered June 1, 2020.



Lowndes County Health Services, LLC v.
Gregory Copeland et al., No. A19A1552,
A19A1553, Court of Appeals of Georgia Fifth
Division, order entered October 10, 2019.



Gregory Copeland, et al. v. Lowndes County
Health Services, LLC d/b/a Heritage
Healthcare at Holly Hill, No. 2014SCV287,
State Court of Lowndes County, State of
Georgia, Order on Defendant’s Motion for New
Trial entered October 25, 2018.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED .................................. i
PARTIES TO THE PROCEEDING ....................... iii
RULE 29.6 STATEMENT ...................................... iii
RELATED PROCEEDINGS ................................. iii
TABLE OF AUTHORITIES ................................... vi
PETITION FOR WRIT OF CERTIORARI ............ 1
OPINIONS BELOW ............................................... 1
JURISDICTION ..................................................... 1
CONSTITUTIONAL PROVISION
INVOLVED ....................................................... 2
STATEMENT OF THE CASE ............................... 3
A. Factual Background ..................................... 5
B. Procedural History ....................................... 7
REASONS FOR GRANTING THE PETITION .... 10
A.

The Decision Below that
Accusations of Innate Racism
Can Qualify as a Race-Neutral
Explanation Under Step Two of
a Batson Challenge Exploits
Known Gaps in the Court’s
Jurisprudence .............................................. 14

B. The Decision Below Exposes the
Lack of a Clear Process for
Assessing Step Two of a Batson
Challenge, Both in the Trial
Courts and on Appellate Review ................. 20

v
C. The Decision Below to Allow a
Race-Based Peremptory Strike
Because Counsel Did Not
Explicitly Invoke the Race of the
Juror Would Eviscerate Batson’s
Protections ................................................... 24
CONCLUSION ....................................................... 29
APPENDIX A – Order of the Supreme
Court of Georgia, Dated December
7, 2020 .............................................................. 1a
APPENDIX B – Order of the Supreme
Court
of Georgia, Dated June 1, 2020 ....................... 3a
APPENDIX C – Order of the Court of
Appeals of Georgia, Fifth Division
Dated October 10, 2019 ................................... 5a
APPENDIX D – Order of the State
Court of Lowndes County, State of
Georgia Order Dated October 25,
2018 .................................................................. 23a
APPENDIX E – Excerpt of Transcript of
the State Court of Lowndes County,
State of Georgia ............................................... 30a

vi
TABLE OF AUTHORITIES
Cases

Page

Barrow v. State,
749 A.2d 1230 (Del. 2000) .................................... 23
Batson v. Kentucky,
476 U.S. 79 (1986) ........................................ passim
Campbell v. Louisiana,
523 U.S. 392 (1998) .............................................. 27
Davis v. Ayala,
576 U.S. 257 (2015) .............................................. 27
Edmonson v. Leesville Concrete Co,
Inc., 500 U.S. 614 (1991) ................................ 26, 27
Flowers v.
Mississippi, 139
S. Ct. 2228 (2019) ......................................... passim
Foster v. Chatman,
136 S. Ct. 1737 (2016) .................................... 15, 25
Georgia v. McCollum,
505 U.S. 42 (1992) .......................................... 17, 27
Johnson v. California,
545 U.S. 162 (2005) ........................................ 25, 28
Lynn v. Alabama,
493 U.S. 945 (1989) ....................... 18, 19, 20, 25-26

vii
Miller-El v. Dretke,
545 U.S. 231 (2005) ............................ 19, 20, 25, 26
Norris v. Alabama,
294 U.S. 587 (1935) .............................................. 21
Powers v. Ohio,
499 U.S. 400 (1991) ........................................ 26, 27
Purkett v. Elem,
514 U.S. 765 (1995) ...................................... passim
Rice v. Collins,
546 U.S. 333 (2006) .............................................. 17
Snyder v. Louisiana,
552 U.S. 472 (2008) ........................................ 24, 25
State v. Thorpe,
783 N.W.2d 749 (Neb. 2010) .......................... 23, 24
U.S. v. Bennett,
664 F.3d 997 (5th Cir. 2011) ................................ 28
U.S. v. Thompson,
528 F.3d 110 (2d Cir. 2008) ................................. 28
U.S. v. Williams,
936 F.2d 1243 (11th Cir. 1991) ............................ 19
Wilkerson v. Texas,
493 U.S. 924 (1989) .................................... 4, 12, 18
Constitutional Provisions and Statutes
U.S. Const. amend. XIV .............................................. 2

viii
Other Authorities
Jeffrey Bellind & Junichi P. Semitsu,
Widening Batson’s Net to Ensnare
More Than the Unapologetically
Bigoted Or Painfully Unimaginative
Attorney,
96 Cornell L. Rev. 1075 (2011) ........................... 19
Justice Hugh Maddox, Batson:
From an Appellate Judge’s
Viewpoint, 54 Ala. Law. 316
(1993) .................................................................... 19

PETITION FOR WRIT OF CERTIORARI
Petitioner Lowndes County Health Services, LLC
d/b/a Heritage Healthcare at Holly Hill (“Holly Hill”)
respectfully petitions for a writ of certiorari to review
the judgments of the Supreme Court of Georgia and
Court of Appeals of Georgia in this case.
OPINIONS BELOW
The orders of the Supreme Court of Georgia to
grant a writ of certiorari in this case and then
withdraw that grant as improvidently granted are
unreported and attached as Appendices A (1a-2a)
and B (3a-4a).
The opinion of the Court of Appeals of Georgia,
Fifth Division upholding the trial judge’s denial of
the Batson challenge is reported at 352 Ga. App. 233,
834 S.E.2d 322 and attached as Appendix C (5a-22a).
The October 26, 2018 order of the State Court of
Lowndes County, State of Georgia denying
Defendant’s Motion for New Trial is unreported and
attached as Appendix D (23a-29a).
The transcript section in which the State Court of
Lowndes County, State of Georgia denied Petitioner’s
objection under Batson v. Kentucky, 476 U.S. 79
(1986) is attached as Appendix E (30a-51a).
JURISDICTION
The Georgia Court of Appeals entered judgment
on October 10, 2019. App. C. The Supreme Court of
Georgia granted a writ of certiorari on June 1, 2020
and withdrew that grant as improvidently granted

2
on December 7, 2020. App. A, B. This Court’s
jurisdiction rests on 28 U.S.C. § 1257(a).
Pursuant to this Court’s order of March 19, 2020,
regarding filing deadlines during the COVID-19
pandemic, this petition is due 150 days after the date
of the denial of Petitioner’s petition for writ of
certiorari in the Georgia Supreme Court.
CONSTITUTIONAL PROVISION INVOLVED
U.S. Const. amend. XIV provides in relevant part:
“No State shall . . . deprive any person of life, liberty
or property, without due process of law; nor deny to
any person within its jurisdiction the equal
protection of the laws.”

3

STATEMENT OF THE CASE
The petition presents recurring and indisputably
important questions involving step two of a Batson
challenge, for which there is little jurisprudence from
the Court. In Batson v. Kentucky, 476 U.S. 79 (1986)
and its progeny, the Court has set forth a three-part
test for ensuring a party does not discriminate on the
basis of race when exercising peremptory strikes
against prospective jurors. Step one, a party makes a
prima facie case of racial discrimination. See Flowers
v. Mississippi, 139 S.Ct. 2228, 2243–44 (2019). Step
two, the burden shifts to the counsel issuing the
strikes to provide a race-neutral explanation for each
strike. See id. Step three, the judge assesses the facts
and determines whether the striking counsel was
motivated in substantial part by discriminatory
intent for any strike. See id. Much of the Court’s case
law has focused on step three, providing little
guidance for lower courts on how to properly assess a
step two explanation for facial race neutrality.
Specifically, the Court has not fully defined
facially race neutral or provided a clear process or
standards of review for step two determinations.
Because of these gaps, the Georgia courts here found
Respondents’ explanation accusing a prospective
juror of innate racism against African-Americans
without substantiation to be race neutral. The trial
court merged its step two analysis on facial race
neutrality with a step three analysis on context,
motive and pretext, rather than issue a separate step
two determination. Also, on review, the appellate

4
court invoked only the great deference standard of
review, which is the standard for a step three
finding, rather than articulate a separate de novo
standard for the purely legal question of whether the
step two explanation was facially race neutral. It
then excused the peremptory strike, stating it was
based on the Respondents’—not juror’s—race.
The substantive and procedural gaps these
rulings exposed in the Court’s jurisprudence on
peremptory strikes have been identified in the past
by Justices. See Wilkerson v. Texas, 493 U.S. 924,
925, 928 (1989) (Marshall, J. dissenting) (urging the
Court to define race neutral as “based wholly on
nonracial criteria. . . . If such ‘smoking guns’ are
ignored, we have little hope of combating the more
subtle forms of racial discrimination.”); Purkett v.
Elem, 514 U.S. 765, 776 (1995) (Stevens, J.
dissenting) (suggesting the de novo review for step
two is “the correct resolution of this procedural
question, but it deserves more consideration than the
Court has provided”).
Further, enforcing Respondents’ burden to give a
facially race neutral explanation here will also
provide the Court with an important opportunity to
clarify the core protections of Batson and its progeny.
Specifically, the Court should clarify, as suggested in
Flowers, 139 S. Ct. at 2234, that any unfounded
peremptory strike “on the basis of race” is disallowed
under the Fourteenth Amendment to the U.S.
Constitution. There are no “magic words” invoking
the juror’s race required to trigger this constitutional
right, which protects jurors, parties, and the courts
from the stain of racial discrimination. Otherwise,
the lower courts’ rulings here would vitiate these

5
constitutional protections by creating a roadmap for
circumventing the Court’s jurisprudence. This case is
an ideal vehicle for resolving these issues.
A. Factual Background
1. Mr. Copeland was admitted to Lowndes
County Health Services, LLC d/b/a Heritage
Healthcare at Holly Hill, a skilled nursing facility, in
2001. App. 6a. During the evening on October 25,
2012, he was found to have abdominal distention and
a brownish-colored stain on his gown. See id. The
nursing staff contacted the on-call physician’s
assistant who decided not to transfer Mr. Copeland
to the emergency room that night. See id. Mr.
Copeland was monitored during the night. See id.
The next morning, Mr. Copeland’s blood was
tested, which revealed several abnormalities. App.
7a. Mr. Copeland was transported to South Georgia
Medical Center, where he was treated. See id. He
ultimately died from Acute Respiratory Distress
Syndrome. See id. In this lawsuit, Respondents
allege Mr. Copeland died due to substandard care
provided by Petitioner’s staff, alleging they failed to
timely monitor, assess, report and respond to Mr.
Copeland’s changing condition and failed to
adequately staff its nursing facility with RNs rather
than CNAs during the night shift. See id. The case
proceeded to trial in the State Court of Lowndes
County, Georgia on January 16, 2018.
2. During
jury
selection,
counsel
for
Respondents, who are African-American, used all six
peremptory strikes to remove Caucasian prospective
jurors. App. 9a. Petitioner’s counsel timely objected
to the strikes on Batson grounds. App. 32a.

6
Respondents’
counsel
provided
race-neutral
explanations for five of the six stricken jurors. App.
32a-44a. When explaining why they struck Juror No.
11, a man named Britt Voigt, Respondents’ counsel
admitted to striking him for a racially discriminatory
reason: Mr. Voigt “may have some innate prejudice
toward our client” because the client is AfricanAmerican. App. 38a.
The rationale for this reason was based solely on
demographics, place of residence and employment:
Mr. Voigt works in a sheet metal factory. He
works in south Lowndes County which based
off of our demographic research of this group
and with our discussion with other counsel
who are – work in this area suggested that
that may not be an area that is friendly to
African Americans, which our client is; so we
have concerns based off his blue collar
employment,
as
well
as
his
living
demographic–the demographics of where he
resides. He may have some innate prejudice
toward our client. App. 38a.
Counsel confirmed there was no reason for
striking Mr. Voigt other than their bare accusations
of innate racism. App. 39a. Mr. Voigt did not say or
do anything that indicated any actual bias or racism,
and counsel did not ask Mr. Voigt about any
suspected innate racism during voir dire:
In addition . . . this is one of the jurors about
whom we have the least information. We know
that he’s married and is a sheet metal worker
and works cranes and lives in . . . south
Lowndes, . . . and beyond that, we don’t really

7
have much information. He was a big question
mark in our minds because nobody really
developed his testimony much. App. 38a-39a.
Finally, Respondents’ counsel stated their
mistaken belief that they were allowed to strike Mr.
Voigt on the basis of race because Mr. Voigt is
Caucasian: “you can’t have a Batson challenge” when
the stricken juror is not part of a “racially distinct
minority.” App. 32a.
3. On January 25, 2018, the jury found in favor of
Respondents in the amount of $7,671,200 and
apportioned 20 percent of the verdict to Petitioner.
App. 8a. The remaining 80 percent of the verdict was
apportioned to non-parties. See id.
B. Procedural History
1. The trial court denied the Batson challenge
regarding Mr. Voigt, stating “as I understand a
Batson Challenge, that once they put forth an
explanation, the burden then shifts to you, [defense
counsel], to prove that it was some type of purposeful
discrimination.” App. 39a (emphasis added). Thus,
the trial court neither required a facially race neutral
explanation, nor concluded Respondents’ counsel met
its step two burden before moving on to step three.
The trial court then rejected the Batson challenge,
dismissed Mr. Voigt from jury service, and held the
trial.
Petitioner moved for a new trial on several
grounds, including the trial court’s error in not
finding Respondents’ explanation to be race based
and not properly making a separate step two
determination before engaging in its step three

8
analysis. App. 23a-29a. On October 26, 2018, the
trial court denied Petitioner’s motion for a new trial.
See id. Again, the trial court failed to isolate the
burden on the striking counsel to provide a facially
race neutral explanation. It failed to recognize that
the allegation of racism, alone, was not race neutral.
Rather, the court continued to merge step two
facial race neutrality with step three concepts of
pretext, context and motive. First, it looked at the
building blocks that led to the accusations of innate
racism—place of residence and employment—finding
on their own, they are race neutral. App. 26a-27a.
The Court also noted, on its own, the prospective
juror’s “lack of responsiveness is a sufficient raceneutral basis for a peremptory strike.” App. 26a.
Second, it said it was “not convinced” the “passing
reference to ‘demographics’ and the possibility of
individuals from the area where Mr. Voigt resided
might be prejudiced against African-Americans is
facially discriminatory.” App. 27a. It then concluded,
“in the context of this case, based upon the discussion
with the Court when the issue was raised at trial,
the actual basis of the strike of Mr. Voigt was not
facially racially based.” App. 28a. Thus, the court
conflated “facially racially based,” which is limited to
assessing the words in the explanation, with context
and discussions with counsel, which is solely relevant
to a step three analysis on motive.1
1 The trial court also suggested the wrong standard for a step
three analysis, indicating the strike must be “for no reason
other” than race rather than being motivated in substantial
part on race. App. 27a.

9
2. Petitioner appealed, and the Court of Appeals
affirmed the trial court’s decision. App. 5a-22a. As
with the trial court, the Court of Appeals focused on
pretext, holding Mr. Voigt’s employment, area of
residence and lack of other information about him
“are facially race neutral.” App. 11a. The Court of
Appeals also based its conclusion on the incorrect
assertion that even if allegations of innate racism are
race-based, here they are excused because they were
based on the Respondents’—not juror’s—race:
The plaintiffs’ explanation for the strike
referenced Juror No. 11’s employment, his
area of residence, and the lack of other
information about him. . . . We recognize that
plaintiffs’ counsel expressed a belief that
individuals from south Lowndes County might
not be “friendly towards” an African-American
claimant. But the explanation for the strike
did not reference the race of south Lowndes
County residents or Juror No. 11. It was raceneutral as to them. . . . [S]heet metal workers
living in south Lowndes County can
presumably be of any race. App. 11a-12a.
Finally, the Court of Appeals never articulated a
separate, de novo, standard of review for the step two
requirement that the striking counsel provide a
facially race neutral explanation before the trial
court engages in a step three motive analysis.
Rather, it referenced only the “great deference”
standard of review for the trial court’s ultimate
decision on motive: “although the trial court could
have determined in addressing the third Batson
prong that counsel’s explanation was pretextual, the
trial court’s decision on the ultimate question of

10
discriminatory intent represents a finding of fact of
the sort accorded great deference.” App. 12a.
3. On June 1, 2020, the Supreme Court of
Georgia granted Petitioner’s writ of certiorari. App.
3a-4a. The court stated it was concerned with the
following issues for ensuring courts provide a
separate assessment of step two race neutrality:
1) Did the Court of Appeals err in determining
that Respondents’ proffered explanation for
the exercise of their peremptory strike against
Juror No. 11 was race neutral?
2) If so, was it proper for the trial court
nevertheless to conduct the third step of the
Batson analysis to determine discriminatory
intent?
On December 7, 2020, the Supreme Court of Georgia
determined the writ of certiorari was “improvidently
granted” and vacated the writ. App. 1a.
REASONS FOR GRANTING THE PETITION
This petition raises critical gaps in the Court’s
thirty-five year jurisprudence regarding Batson
challenges. Despite the Court’s many decisions,
concurrences, and dissents in Batson cases, the
Court has not provided clear guidance on the step
two burden on counsel issuing the peremptory strike
to provide a “facially race neutral” explanation for
that strike. The Court has not fully defined facially
race neutral, the process for determining whether
counsel has met this burden, or the consequences for
failing to do so. The Court also has not specified a
standard of review of a trial court’s determination of
whether an explanation is facially race neutral.

11
Further, it has suggested but not held that the
Fourteenth Amendment bars racism of any kind—
not only discrimination against a juror because of his
or her race—from entering the jury selection process.
Here, counsel for African-American plaintiffs
used all six peremptory strikes on Caucasian
prospective jurors. Counsel for Petitioner properly
raised Batson challenges with respect to all six
peremptory strikes. App. 9a. Respondents’ counsel
provided facially race neutral explanations for all but
one of the jurors—Juror No. 11, Mr. Voigt. App. 32a44a. Respondents’ counsel overtly acknowledged that
race played a substantial part in striking Mr. Voigt.
Their step two explanation was that Mr. Voigt lives
in an area “that may not be an area that is friendly
to African Americans, which our client is; so we have
concerns based off his blue collar employment, as
well as his living demographic – the demographics of
where he resides. He may have some innate
prejudice toward our client.” App. 38a.
Despite these clear, repeated references to race,
Georgia courts denied the Batson challenge, failing to
enforce Respondents’ burden to provide a facially
race neutral explanation for the strike. In fact, the
trial court did not address the facial accusations of
racism at all, which is the sole province of step two of
the Batson test. Instead, it engaged only in a step
three analysis, assessing context, motive, and pretextual nature of factors counsel said led them to
their race-based accusations. The court concluded
these factors—residence, employment and lack of
information about Mr. Voigt—are race neutral. App.
26a-27a. In some instances, these factors may be race
neutral on their own, but once Respondents’ counsel

12
asserted the race-based accusation that Mr. Voigt
harbored “innate prejudice,” even if based on these
potentially race neutral factors, the explanation itself
is not and cannot be deemed facially race neutral.
This conclusion should have been apparent to the
trial court, but it did not engage in a separate step
two analysis. The Court of Appeals compounded this
error, stating the strike was also race neutral for Mr.
Voigt because Respondents’ counsel invoked only
their client’s race, and not Mr. Voigt’s race: “the
explanation for the strike did not reference the race
of south Lowndes County residents or Juror No. 11.
It was race neutral as to them.” App 12.
First, the Court should grant this petition to
clarify that an allegation of racial prejudice, without
substantiation, is not a race-neutral explanation
under step two of the Batson test. As this Court has
held, to be considered racially neutral, race cannot be
“inherent in the [counsel’s] explanation.” Purkett v.
Elem, 514 U.S. at 768 (internal citation omitted). Put
simply, race must be considered “inherent” to an
accusation of racism. As Justice Marshall explained
in encouraging the Court to define facially race
neutral in Wilkerson v. Texas, 493 U.S. 924, 925, 928
(1989) (Marshall, J. dissenting), “To be ‘neutral,’ the
explanation must be based wholly on nonracial
criteria. . . . If such ‘smoking guns’ are ignored, we
have little hope of combating the more subtle forms
of racial discrimination.”
Second, the Court should grant the petition to
define the process courts should use when
determining whether the step two explanation for
striking a juror is facially race neutral, including

13
that the standard of review for a step two
determination is de novo. As Justice Stevens (joined
by Justice Breyer) pointed out in the Purkett dissent,
Purkett only “implicitly ratifies” the de novo standard
for whether the step two explanation is race neutral
by applying the “great deference” standard only to
the step three finding on motive. 514 U.S. at 776.
Justice Stevens suggested de novo is “the correct
resolution of this procedural question, but it deserves
more consideration than the Court has provided.” Id.
The Court should provide that attention here.
Finally, the Court should use this case to clarify
that race cannot infect the jury selection process
under the U.S. Constitution, regardless upon whose
race the peremptory strike is based. As the Court
explained in Flowers v. Mississippi, 139 S. Ct. 2234
(2019), the Court’s jurisprudence has evolved since
Batson characterized its ruling as protecting the
rights of racially distinct minorities to serve on a
jury. It should now be understood the Fourteenth
Amendment protects jurors, parties and courts from
race being a substantial factor in the jury selection
process in any form. See id. at 2242. The Court
should ensure this constitutional protection does not
hinge on whether counsel striking the prospective
juror artfully avoids certain “magic words,” here by
not expressly stating the prospective juror’s race.
These gaps in the Court’s jurisprudence, as well
as confusion among the lower courts, as shown here,
warrant the Court’s review. The questions presented
are of substantial legal and practical importance, and
this case is an optimal vehicle for considering them.
Because this case satisfies the criteria for certiorari,
the petition should be granted.

14
A. The Decision Below that Accusations of
Innate Racism Can Qualify as a RaceNeutral Explanation Under Step Two of a
Batson Challenge Exploits Known Gaps
in the Court’s Jurisprudence.
The Court should grant the petition to ensure
that any invocation of race in a step two explanation
of a Batson challenge makes the explanation not
facially race neutral. Here, Petitioner raised Batson
challenges because Respondents used all of their
peremptory strikes on Caucasian prospective jurors.
At that point, Respondents were required “to come
forward with a neutral explanation” for the strikes.
Batson, 476 U.S. at 97. However, for Juror No. 11,
Mr. Voigt, Respondents acknowledged striking him
on the basis of race. They said Mr. Voigt lives in an
area “that may not be an area that is friendly to
African Americans,” and, given “his blue collar
employment,” he may “have some innate prejudice
toward our client.” App. 38a. This explanation is not
facially race neutral, and the trial court should have
granted the Batson challenge regarding Mr. Voigt.
1. The trial court allowed the explanation despite
the fact that it was facially made on the basis of race.
App. 39a. The trial court did not separately assess
the words in the explanation, i.e., whether accusing a
prospective juror of harboring innate racism against
African-Americans was facially race neutral in and of
itself. Rather, it looked at other factors, including
context and the rationale counsel said led them to
make this accusation, namely place of residence,
employment and lack of information about Mr. Voigt.
The trial court stated these factors, on their own, are
race-neutral. App. 26a-27a. It then concluded, “in the

15
context of this case . . . the strike of Mr. Voigt was
not facially racially based.” App. 28a.
The Georgia Court of Appeals repeated this error
of conflating facial race neutrality with pretext,
stating that Mr. Voigt’s “employment, his area of
residence, and the lack of other information about
him . . . are facially race neutral.” App. 11a. It
further held that accusing Mr. Voigt of innate racism
toward Respondents was race neutral because
counsel referred only to the race of their clients, not
that of Mr. Voigt: “We recognize that plaintiffs’
counsel expressed a belief that individuals from
south Lowndes County might not be ‘friendly
towards’ an African-American claimant. But the
explanation for the strike did not reference the race
of south Lowndes County residents or [Mr. Voigt]. It
was race neutral as to them.” App. 12a.
Thus, the Georgia courts allowed race to be a
substantial factor in the peremptory strike so long as
the explanation was based on potentially race
neutral factors and did not specify the race of the
juror. Neither justification is allowable under the
Fourteenth Amendment.
2. To be clear, Petitioner did not assert and is not
asserting that residence, employment, demographics,
responsiveness, or any other factor was used as a
pretext for race.2 Whether those factors are used as a
2 Compounding this error, the trial court misapplied the
standard for a step three analysis, stating the strike must be
“for no reason other” than race. But see Foster v. Chatman, 136
S. Ct. 1737 (2016) (stating any peremptory strike “motivated in
substantial part by race” is unconstitutional).

16
pretext for race are considered only under step three
of the Batson test. Here, counsel directly tied these
factors to accusations of racism, and accusing a
prospective juror of innate racism is not facially raceneutral under step two of a Batson challenge.
Further, it is undisputed that Mr. Voigt did not
say or do anything during voir dire that could have
indicated he actually had a bias against Respondents
or African Americans generally. Counsel described
Mr. Voigt as a “big question mark in our minds
because no one really developed his testimony much.”
App. 39a. Their allegations of innate racism were
completely unsubstantiated. They were clear
demonstrations of Respondents’ racial prejudice
against Mr. Voigt based on his demographics.
In a telling moment, Respondents’ counsel
suggested Petitioner could not assert a Batson
challenge because Mr. Voigt is Caucasian and not
part of a “racially distinct minority.” App. 32a. The
trial court did not accept this argument, but the
comment provides valuable insight into why
Respondents’ counsel in their step two explanation
did not seek to even hide the race-based reasons for
this peremptory strike: they thought they were
allowed
to
discriminate
against
Caucasian
prospective jurors based on their race.
3. Contrary to the Georgia court rulings,
Respondents’ step two explanation here does not
clear even the low bar this Court has set for the
requirement that the striking counsel’s explanation
be race neutral. See Purkett v. Elem, 514 U.S. at 76768 (“The second step of this process does not demand
an explanation that is persuasive, or even

17
plausible.”). The issue for step two is solely “facial
validity.” Id. at 768. “Unless a discriminatory intent
is inherent in the prosecutor’s explanation, the
reason offered will be deemed race neutral.” Id. at
768 (internal citation omitted) (emphasis added).
“[S]o long as the reason is not inherently
discriminatory, it suffices.” Rice v. Collins, 546 U.S.
333, 338 (2006) (emphasis added). Some have called
on the Court to make step two a more substantive
standard, but if courts do not at least impose the
inherently discriminatory language, then the second
step of the Batson test will be completely illusory.
Here, racial discrimination must be determined to
be inherent to an accusation of racism if the burden
on striking counsel to provide a facially race neutral
explanation for a peremptory strike is going to have
any meaning. As this Court has explained, accusing
a juror of harboring “racial animus” against a party
is wholly inconsistent with this Court’s jurisprudence
for a race-neutral explanation. See Georgia v.
McCollum, 505 U.S. 42, 58 (1992). Indeed, the Court
has “rejected the view that assumptions of partiality
based on race provide a legitimate basis for
disqualifying a person as an impartial juror.” Id. The
Court should reaffirm that there can be no legal
distinction “between exercising a peremptory
challenge to discriminate invidiously against jurors
on account of race and exercising a peremptory
challenge to remove an individual juror who harbors
racial prejudice.” Id. at 59.
The Court should grant the petition to provide
clear guidance that accusing a juror of racism,
regardless of his or her race, is facially

18
discriminatory and fails to satisfy the step two
Batson requirement of race neutrality.
5. Such a ruling is needed. In 1989, Justice
Marshall encouraged the Court in two cases—
Wilkerson v. Texas, 493 U.S. 924 (1989) (Marshall, J.
dissenting) and Lynn v. Alabama, 493 U.S. 945
(1989) (Marshall, J., dissenting)—to provide needed
guidance for the step two requirement of facial race
neutrality. In Wilkerson, he explained that
allegations a juror would be partial for or against any
party because of race “cannot be squared with
Batson’s unqualified requirement that [counsel] offer
‘a neutral explanation’ for its peremptory challenge.”
Wilkerson, 493 U.S. at 926 (Marshall, J. dissenting)
(citing Batson, 476 U.S. at 98). “To be ‘neutral,’ the
explanation must be based wholly on nonracial
criteria.” Id. at 926. It “must not be tainted by any
impermissible factors.” Id. at 928. He expressed his
concern that if “such ‘smoking guns’ are ignored” in
cases where race-conscious factors are overtly stated,
“we have little hope of combating the more subtle
forms of racial discrimination.” Id. When place of
residence or other factors are openly tied to race, as
here, a trial court must conclude the explanation
does not satisfy step two of the Batson challenge.
In issuing such a ruling, the Court may also find
it useful to provide additional guidance for when
place of residence or other factors are so inherently
tied to race that they are not facially race neutral
under step two of the Batson test versus when they
present a question of pretext requiring a step three
analysis for motive. In Lynn, the accusation of racism
was only slightly more subtle than here; counsel
struck a juror based on the fact that she lived near a

19
party and “the possibility of knowing these people
might affect her fairness.” 493 U.S. at 947 (Marshall,
J., dissenting). Justice Marshall wrote that “the
proxy for bias on which he actually relied was not
place of residence but race.” Id. The boundaries of
step two facial race neutrality could use more
definition for such close situations, though the case
at bar presents a clear invocation of race.
6. Given the lack of jurisprudence with regard to
step two’s facial race neutrality requirement, it is not
surprising that courts, jurists and scholars have long
expressed “serious concerns” that the lack of clear
standards for the step two requirement that the
explanation be race neutral would allow “cloaking
discriminatory motives in only marginally neutral
justifications.” U.S. v. Williams, 936 F.2d 1243, 1247
(11th Cir. 1991); see also Miller-El v. Dretke, 545 U.S.
231, 272 (2005) (Breyer, J. concurring) (expressing
concern that demographics could be used “to express
stereotypical judgments about race”); Jeffrey Bellind
& Junichi P. Semitsu, Widening Batson’s Net to
Ensnare More Than the Unapologetically Bigoted Or
Painfully Unimaginative Attorney, 96 Cornell L. Rev.
1075, 1093 (2011) (observing the lack of clear
standards for race neutrality has led to “purportedly
‘race-neutral’ reasons that strongly correlate with
race”); Justice Hugh Maddox, Batson: From an
Appellate Judge’s Viewpoint, 54 Ala. Law. 316, 31718 (1993) (finding courts often cannot distinguish
“valid race-neutral reasons [from] what are not”).
7. Justice Marshall suggested a solution in Lynn
that would be appropriate here as well: in the step
two explanation, if counsel is going to invoke race
overtly as here, or assert factors as a “proxy” for race

20
as in Lynn, they should have to seek “corroboration
on voir dire” as to whether the jurors “actually
entertain the bias.” 493 U.S. at 947. Bald accusations
of racism should not be allowed.
By granting this petition, the Court can make
clear that striking a juror based on a belief that he or
she would be swayed in favor of or against a party
because of race is not race neutral, but inherently
tied to racial discrimination. Further, if any
accusation of racism is going to be made, counsel
must develop the assertion through the juror’s
testimony in voir dire. Unsubstantiated allegations
of racism, though, are not race neutral on their face
and fail the second step of the Batson test.
Here, Respondents’ counsel’s explanation was
facially discriminatory and violated Mr. Voigt’s right
to be able to serve on the jury free from racial
considerations. Also, counsel admitted to not asking
any questions of Mr. Voigt about race even though
they accused him of racism. As the Court explained
in Batson, a peremptory strike cannot be based on an
“assumption” the juror “would be impartial” because
of race. 476 U.S. at 97. Otherwise, “it may be
impossible for trial courts to discern if a ‘seat-of-thepants’ peremptory challenge reflects a ‘seat-of-thepants’ racial stereotype.” Miller-El, 545 U.S. at 268.
B. The Decision Below Exposes the Lack of
a Clear Process for Assessing Step Two of
a Batson Challenge, Both in the Trial
Courts and on Appellate Review.
The Court should also grant the petition to clarify
the process and standard of review for when the
striking party fails to provide a race-neutral

21
explanation for its peremptory strike during step two
of the Batson process. The Court has never explicitly
provided this guidance. As a result, courts have given
short shrift to step two, either moving on to step
three regardless of whether the explanation was
truly race neutral or merging steps two and three
analyses together. As the Court explained in Batson,
requiring counsel to “articulate a neutral explanation
related to the particular case to be tried” is essential
for ensuring the Equal Protection Clause is not a
“vain and illusory requirement.” 476 U.S. at 98
(citing Norris v. Alabama, 294 U.S. 587, 598 (1935)).
This case provides the Court with an ideal vehicle for
ensuring race neutrality under Batson’s step two is
given full effect by lower courts.
1. Here, the trial court never engaged in a
separate assessment of whether the explanation
provided by Respondents’ counsel for the peremptory
strike of Mr. Voigt was facially race neutral. Rather,
once Respondents’ counsel put forth any explanation,
the trial court shifted the burden to defense counsel
“to prove that it was some type of purposeful
discrimination.” App. 39a. The court never required
the explanation to be race neutral on its own.
Next, in response to a motion for a new trial, the
trial court conflated the step two requirement for a
non-facially discriminatory explanation with a step
three context, pretext, and motive analysis. It
concluded that “in the context of this case, based
upon the discussion with the Court when the issue
was raised at trial, the actual basis of a strike of Mr.
Voigt was not facially racially based.” App. 28a.
Context, motive and pretext are step three concerns;

22
step two is limited to whether the explanation is
“facially racially based.”
The Georgia Court of Appeals further erred by not
stating that a step two explanation is subject to a de
novo standard of review. The court merely referred to
the step three standard of review that the trial
court’s determination on discriminatory motive was
due “great deference and will be affirmed unless
clearly erroneous.” App. 9a.
2. These errors point to gaps in the Court’s
jurisprudence with respect to step two of a Batson
challenge. In Purkett, the Court intimated the
elements of a proper step two determination but did
not state them explicitly. It held only that it was
improper for courts to “combin[e] Batson’s second
and third steps into one.” Purkett, 514 U.S. at 768. It
also stated that a trial court’s determination under
step three is given “great deference” because “[i]t is
not until the third step that the persuasiveness of
the justification become relevant—the step in which
the trial court determines whether the opponent of
the strike has carried his burden of proving
purposeful discrimination.” Id. But the Court never
set forth the parameters of a step two determination,
what happens if the striking party fails to meet its
burden of providing a race neutral explanation, and
what the standard of review of step two is on appeal.
Justice Stevens, joined by Justice Breyer, pointed
out these omissions when dissenting in Purkett.
Specifically, on the issue of appellate review, they
stated the majority opinion only “implicitly ratifies
the Court of Appeals’ decision to evaluate on its own
whether the prosecutor had satisfied step two.” Id. at

23
776. They stated their belief that this “is the correct
resolution of this procedural question, but it deserves
more consideration than the Court has provided.” Id.
(emphasis added). The Court can provide that
attention here, but it should do more.
3. First, the Court should use this case to clarify
that trial courts must assess whether the step two
explanation is facially race neutral as a separate
inquiry, which can be based solely on the words in
the explanation. The Court should also make clear
that moving onto step three is dependent on a valid
step two explanation. If the trial court determines
the step two explanation is not facially race neutral,
the responding counsel has not met its step two
burden. The trial court must end the inquiry, grant
the Batson challenge and vacate the strike. There is
no basis for engaging in a step three analysis on
motive without a facially race neutral explanation.
Second, as suggested in the Purkett dissent, the
Court should clarify that determining whether a step
two explanation is facially race neutral “presents a
pure legal question” for the appellate courts to
review under a de novo standard. Id. Several state
courts have reached this conclusion, but the Court
should ensure consistency across the country. See,
e.g., Barrow v. State, 749 A.2d 1230, 1238 (Del. 2000)
(“In a Batson claim, the issue of whether the
prosecutor offered a race-neutral explanation for the
use of peremptory challenges is reviewed de novo.”)
(internal quotations omitted); State v. Thorpe, 783
N.W.2d 749, 757 (Neb. 2010) (“For Batson challenges,
we will review de novo the facial validity of an
attorney’s race-neutral explanation for using a
peremptory challenge as a question of law.”).

24
Here, the Court should clarify that the trial court
is given deference only for a step three determination
as to whether the counsel struck a juror based on
discriminatory intent. See Snyder v. Louisiana, 552
U.S. 472, 477 (2008) (applying a “clearly erroneous”
standard for appellate review of step three
determinations). It is not until step three that the
judge engages in fact-finding and provides a
judgment as to whether the race-neutral explanation
is persuasive. See Thorpe, 783 N.W.2d at 757. Step
two requires no such fact-finding, which is why
courts have held that it presents a purely legal
question for which de novo review is appropriate.
C. The Decision Below to Allow a RaceBased
Peremptory
Strike
Because
Counsel Did Not Explicitly Invoke the
Race of the Juror Would Eviscerate
Batson’s Protections.
The importance of this petition extends beyond
the parameters for assessing a step two explanation
to the core protections Batson and its progeny
provide against racial discrimination in jury
selection: can counsel get away with exercising
peremptory strikes based on race merely by avoiding
certain “magic words” in the explanation?
As discussed above, the Court of Appeals held a
party may strike a juror on the basis of race so long
as it is the party’s race, and not the juror’s race, that
is invoked. “We recognize that plaintiffs’ counsel
expressed a belief that individuals from south
Lowndes County might not be ‘friendly towards’ an
African-American claimant. But [they] did not
reference the race of south Lowndes County

25
residents or Juror No. 11.” App. 12a. There is no
denying that “emphasis on race was on their minds”
in striking Mr. Voigt. Miller-El, 545 U.S. at 266.
Therefore, in determining the step two issues
presented in this petition, the Court can firmly
establish that any peremptory strike “motivated in
substantial part by discriminatory intent” violates
the Fourteenth Amendment to the Constitution
regardless of whose race is at issue or whether
certain magic words are spoken. Foster v. Chatman,
136 S. Ct. 1737, 1742 (2016) (citing Snyder, 552 U.S.
at 485). As this Court has explained, “[t]he
constitutional interests Batson sought to vindicate
are not limited to the rights possessed by the
defendant on trial, nor to those citizens who desire to
participate in the administration of the law, as
jurors.” Johnson v. California, 545 U.S. 162, 171-72
(2005). “[T]he overriding interest [is] eradicating
discrimination from our civic institutions.” Id. Race—
including unfounded allegations that a juror harbors
innate prejudice against African-Americans—must
not taint the jury selection process in any form.
1. Such a ruling is a natural next step in the
Court’s jurisprudence. Initially, Batson was
understood as protecting the rights of a “cognizable
racial group,” for both criminal defendants in
obtaining a fair trial and prospective jurors in
serving on a jury. See Lynn, 493 U.S. at 946
(Marshall, J. dissenting). The Court stated “[t]he
defendant initially must show that he is a member of
a racial group capable of being singled out for
differential treatment.” Batson, 476 U.S. at 94. Also,
“no citizen [can be] disqualified from jury service
because of his race.” Id. at 99 (emphasis added). “The

26
core guarantee of equal protection, ensuring citizens
that their State will not discriminate on account of
race, would be meaningless were we to approve the
exclusion of jurors on the basis of such assumptions,
which arise solely from the jurors’ race.” Id. at 97-98.
2. Since Batson, as well-documented by the
Court in Flowers, these protections have been
extended beyond the rights of African-American
criminal defendants and jurors. For example, the
Court held any defendant, regardless of race, may
object to a race-based exclusion of persons from the
jury. See Powers v. Ohio, 499 U.S. 400 (1991). Batson
applies to civil litigation, not just criminal
defendants. See Edmonson v. Leesville Concrete Co,
Inc., 500 U.S. 614 (1991). And, there is no longer a
need to show the juror was within an “arguably
targeted class.” Miller-El, 545 U.S. at 239.
The language the Court has used to describe
Batson protections also has become much broader,
implying its protections apply to any racial
discrimination—not just discrimination regarding
the juror’s race. Compare, e.g., Batson, 476 U.S. at 87
(juror has a right not to be excluded “on account of
his race”) (emphasis added) with Powers, 499 U.S. at
409 (juror has a right not to be excluded “on account
of race”). In Davis v. Ayala, Justice Sotomayor
defined Batson as barring any “racial considerations
to drive the use of peremptory challenges against
jurors.” 576 U.S. 257, 303-304 (2015) (emphasis
added). And, in Flowers, the Court stated no party
may “discriminate on the basis of race when
exercising peremptory challenges against prospective
jurors.” 139 S. Ct. at 2234 (emphasis added). The
Court further asserted the goal of “prevent[ing]

27
racial discrimination from seeping into the jury
selection process.” Id. at 2243-44. The petition
presents the perfect opportunity for the Court to hold
that the constitutional inquiry in Batson and its
progeny is not limited to the juror’s race, but race in
any form infecting jury selection.
3. Here, Mr. Voigt had a constitutional right not
to be excluded from jury service based on a
groundless accusation that he harbored some “innate
prejudice” against African-Americans generally and,
therefore, might racially discriminate against the
Respondents. As this Court has explained, “[a]
venireperson excluded from jury service because of
race suffers a profound personal humiliation
heightened by its public character.” Powers, 499 U.S.
at 414; accord McCollum, 505 U.S. at 49 (expressing
concern over the “open and public” nature when
prospective jurors are racially discriminated). “Both
the excluded juror and the [opposing party] have a
common interest in eliminating racial discrimination
from the courtroom.” Id. at 413.
4. The Court has also repeatedly underscored the
importance of Batson for protecting the integrity of
the judicial system. See Edmonson, 500 U.S. at 628
(“Racial bias mars the integrity of the judicial system
and prevents the idea of democratic government from
becoming a reality.”); Campbell v. Louisiana, 523
U.S. 392, 399 (1998) (“If that process is infected with
racial discrimination, doubt is cast over the fairness
of all subsequent decisions.”); Powers, 499 U.S. at
411 (stating any discrimination on the basis of race
“casts doubt on the integrity of the judicial process”).
Indeed, “the overriding interest in eradicating
discrimination from our civic institutions suffers”

28
when a person is struck on account of race. Johnson,
545 U.S. at 171-72.
The rights of the parties and jurors, as well as the
integrity of the judicial system, cannot hinge on the
technicalities the Georgia courts assert here. There is
no legal distinction between striking a juror because
the juror may favor a party due to race, as in Batson,
and striking a juror because of fear the juror would
disfavor a party due to race, as here. It also should
not matter if the parties and jurors are of the same
or different race, which party or juror is of which
race, or if the counsel states the race of the party or
juror. Lower courts are confused on these points.
Compare U.S. v. Thompson, 528 F.3d 110, 118 (2d
Cir. 2008) (stating the “argument that Batson does
not apply where an African American defendant
seeks to eliminate white jurors is entirely without
merit”) with U.S. v. Bennett, 664 F.3d 997, 1009 (5th
Cir. 2011) (stating Supreme Court has not “squarely
held” that Batson prohibits a black party from
striking a white juror on the basis of race).
The Court should grant the petition to affirm the
Fourteenth Amendment prohibits any peremptory
strike on the basis of race. Otherwise, this case will
lead to the “backsliding” the Court cautioned against
in Flowers by providing a roadmap for circumventing
the Court’s jurisprudence. 139 S. Ct. at 2243.
*

*

*

This petition provides the Court with an ideal
opportunity to consider and resolve the questions
presented. These questions are undeniably important
and expose omissions in the Court’s jurisprudence.
Failure to grant the petition would significantly

29
undermine the protections the Court has assiduously
developed over the past thirty-five years against
exercising peremptory strikes on the basis of race.
Further, the rulings below that unsubstantiated
accusations of innate racism against AfricanAmericans are somehow race neutral cannot be
defended. The Court should grant certiorari in this
case and reverse or vacate the judgment below.
CONCLUSION
The petition for a writ of certiorari should be
granted. In the alternative, the Court may consider
granting, vacating and remanding this case in light
of Flowers, which was decided shortly before the
Georgia Court of Appeals issued its ruling.
Respectfully submitted,
Philip S. Goldberg
Counsel of Record
SHOOK, HARDY & BACON L.L.P.
1800 K Street, N.W., Suite 1000
Washington, D.C. 20006
(202) 783-8400
pgoldberg@shb.com
Christopher E. Appel
Kateland R. Jackson
SHOOK HARDY & BACON, L.L.P.
1800 K Street, N.W., Suite 1000
Washington, D.C. 20006
(202) 783-8400
cappel@shb.com
krjackson@shb.com

30

R. Page Powell, Jr.
HUFF, POWELL & BAILEY, L.L.C.
999 Peachtree Street, Suite 950
Atlanta, GA 30309
(404) 892-4022
ppowell@huffpowellbailey.com
May 6, 2021

Counsel for Petitioners

APPENDIX

1a
AppendixOF
A THE SUPREME
APPENDIX A — ORDER
COURT OF GEORGIA, DATED DECEMBER 7, 2020

SUPREME COURT OF GEORGIA
Case No. S20C0425 & S20G0425
December 7, 2020
The Honorable Supreme Court met pursuant to
adjournment. The following order was passed:
LOWNDES COUNTY HEALTH SERVICES, LLC
v.
GREGORY COPELAND et al.
After considering this matter further, the Court has
determined that the writ of certiorari issued in Case No.
S20G0425 was improvidently granted. Accordingly, the
writ is vacated and the petition for certiorari in Case No.
S20C0425 is denied.
Melton, C.J., Nahmias, P.J., and, Peterson, Bethel,
and Ellington, JJ., concur. Boggs, J., dissents. Warren,
J., not participating. McMillian, J., disqualified.
Court of Appeals No. A19A1552

2a
Appendix A
SUPREME COURT OF THE STATE OF GEORGIA
Clerk’s Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.
/s/
clerk

3a
AppendixOF
B THE SUPREME
APPENDIX B — ORDER
COURT OF GEORGIA, DATED JUNE 01, 2020
SUPREME COURT OF GEORGIA
Case No. S20C0425
June 01, 2020
The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.
LOWNDES COUNTY HEALTH SERVICES, LLC
v.
GREGORY COPELAND et al.
Court of Appeals Case No. A19A1552
The Supreme Court today granted the writ of
certiorari in this case.
All the Justices concur, except McMillian, J.,
disqualified.
This case will be assigned to the September 2020
oral argument calendar automatically under Supreme
Court Rule 50 (2), as amended September 13, 1996. Oral
argument is mandatory in granted certiorari cases.

4a
Appendix B
This Court is particularly concerned with the
following issue or issues:
1. Did the Court of Appeals err in determining that
Respondents’ proffered explanation for the exercise of
their peremptory strike against Juror No. 11 was raceneutral?
2. If so, was it proper for the trial court nevertheless to
conduct the third step of the Batson analysis to determine
discriminatory intent?
Briefs should be submitted only on these points. See
Supreme Court Rule 45.
SUPREME COURT OF THE STATE OF GEORGIA
Clerk’s Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.
/s/
Clerk

5a
AppendixOF
C THE COURT OF
APPENDIX C — OPINION
APPEALS OF GEORGIA, DATED
OCTOBER 10, 2019
IN THE COURT OF APPEALS OF GEORGIA
A19A1552, A19A1553.
LOWNDES COUNTY HEALTH SERVICES, LLC
v.
COPELAND et al.; and vice versa.
October 10, 2019, Decided
Mercier, Judge.
Following the death of Bobby Copeland (“Bobby”),
Gregory Copeland, individually and as Bobby’s son, and
Marier House, as the administrator of Bobby’s estate
(collectively, “the plaintiffs”) sued Lowndes County Health
Services, LLC d/b/a Heritage Healthcare at Holly Hill
(“Holly Hill”) for wrongful death and other damages.
A jury found Holly Hill liable for both professional and
ordinary negligence. It awarded the plaintiffs over $7.5
million in damages, but allocated fault between Holly
Hill and four nonparties to the trial. Based on the jury’s
allocation of fault, the trial court entered final judgment
for the plaintiffs against Holly Hill for $1,524,240.
In Case No. A19A1552, Holly Hill appeals the final
judgment entered on the jury’s verdict and the denial

6a
Appendix C
of its motion for new trial, arguing that the trial court
erred in (1) rejecting its challenge to the plaintiffs’ use of
a peremptory jury strike, and (2) denying its motion for
directed verdict on plaintiffs’ negligent staffing claim. In
their cross-appeal in Case No. A19A1553, the plaintiffs
assert that the trial court erred in (1) denying their motion
for directed verdict as to apportionment, and (2) using
a misleading and confusing special verdict form. For
reasons that follow, we affirm.
Viewed in the light most favorable to the jury’s verdict,
see Ford Motor Co. v. Gibson, 283 Ga. 398, 399 (659 SE2d
346) (2008), the evidence showed that Bobby lived at Holly
Hill, a skilled nursing facility in Valdosta, from 2001 until
his death in 2012 at the age of 71. Around 10:45 p.m. on
October 25, 2012, Faye Jenkins, a licensed practical nurse
(“LPN”) employed by Holly Hill and assigned to the 11:00
p.m. to 7:00 a.m. “night shift,” entered Bobby’s room and
saw brown vomit on his clothing. Noting that Bobby’s
stomach was “slightly distended,” Jenkins listened to
his abdomen with her stethoscope and detected “a lack
of bowel sounds in three of four quadrants[.]” She then
called Shawn Tywon, physician’s assistant to Dr. Douglas
Moss, Holly Hill’s medical director.1 Jenkins related her
observations and asked whether Bobby should go to the
hospital for evaluation. Tywon told her not to send Bobby
to the hospital, but he ordered a blood test, an abdominal
x-ray, and nausea medication for Bobby. Jenkins checked
1. The plaintiffs originally named Moss and Tywon as
defendants in this action, but they settled with the plaintiffs prior
to trial. Although Moss and Tywon provided care for Holly Hill
residents, it appears that they were not employed by Holly Hill.

7a
Appendix C
on Bobby throughout her shift. She heard him moan at
one point during the night and noticed no change in his
bowel sounds.
As the end of her shift approached on October 26,
2012, Jenkins reported Bobby’s condition to the nurse
coming on duty at 7:00 a.m., as well as to Registered
Nurse (“RN”) Lisa Sirmans, Holly Hill’s assistant director
of nursing, who arrived at the facility around 6:30 a.m.
Concerned about Bobby, Jenkins asked Sirmans “to please
get something done about this resident,” and Sirmans
responded that “she would.” According to Bobby’s medical
chart, however, he was not actually assessed until 9:15
a.m., when Kaye Frazier, an RN who served as Holly
Hill’s director of nursing, examined him. Frazier noted
that Bobby’s abdomen was distended and that he was
complaining of abdominal pain.
The x-ray ordered the night before by Tywon was
completed at Holly Hill just before 10:00 a.m. Tywon
examined Bobby at 10:15 a.m., and approximately 45
minutes later, an ambulance transported Bobby to
South Georgia Medical Center (“SGMC”), where he was
treated in the emergency room by a team that included
Dr. Matthew Shannon, Moss, and Tywon. Bobby was
transferred to the hospital’s intensive care unit around
5:30 p.m. He died later that night from complications
related to aspirating fecal material, a risk associated with
bowel obstructions.
The jury found Holly Hill liable to the plaintiffs in
both professional and ordinary negligence, and it awarded

8a
Appendix C
the plaintiffs over $7.5 million in compensatory damages.
Jurors, however, allocated only 20 percent of the fault to
Holly Hill. They apportioned the remainder of the fault to
nonparties Tywon (35 percent), Moss (35 percent), SGMC
(5 percent), and Shannon (5 percent). The trial court
entered judgment against Holly Hill for 20 percent of the
damages awarded, and these appeals followed.
Case No. A19A1552
1. Holly Hill argues that the trial court erred in
denying its motion, brought pursuant to Batson v.
Kentucky, 476 U. S. 79 (106 SCt 1712, 90 LE2d 69) (1986),
challenging the plaintiffs’ decision to strike Juror No. 11
from the jury pool. In Batson, the United States Supreme
Court barred the government from striking prospective
jurors from a jury panel based upon race. See id. at 8489 (II) (A), (B); AIKG, LLC v. Marshall, 350 Ga. App.
413, 418 (829 SE2d 608) (2019). The Supreme Court later
extended this holding to civil litigants, prohibiting racebased peremptory strikes in civil trials. See Edmonson
v. Leesville Concrete Co., 500 U. S. 614, 630 (II) (B) (111
SCt 2077, 114 LE2d 660) (1991); AIKG, LLC, supra.
In both criminal and civil proceedings, a Batson
challenge is analyzed using a three-pronged test:
(1) the opponent of a peremptory challenge
must make a prima facie showing of racial
discrimination; (2) the proponent of the strike
must then provide a race-neutral explanation
for the strike; and (3) the court must decide

9a
Appendix C
whether the opponent of the strike has proven
discriminatory intent.
AIKG, LLC, supra (citation and punctuation omitted). On
appeal, we are mindful that the trial court’s resolution of
a Batson motion “rests largely upon assessment of the
proponent’s state of mind and credibility; it therefore lies
peculiarly within a trial judge’s province.” Id. (citation
and punctuation omitted). A trial court’s determination
as to whether the opponent of a jury strike proved
discriminatory intent is “entitled to great deference and
will be affirmed unless clearly erroneous.” Id. (citation
and punctuation omitted).
Noting that all six of the individuals stricken by
plaintiffs’ counsel were white, Holly Hill argued at trial
that the strikes “ha[d] to do with race.” In response,
plaintiffs’ counsel provided the reasoning behind the
strikes. As to Juror No. 11, counsel stated:
[Juror No. 11] works in a sheet metal factory. He
works in South Lowndes County which based
off our demographic research of this group and
with our discussion with other counsel who are
right in this area, suggested that they may not
be [an] area that is friendly towards African
Americans which our client is. So, we have
concerns based off his blue-collar employment,
as well as … the demographics of where he
resides that he may have some innate prejudice
toward our client.

10a
Appendix C
...
In addition, … this is one of the jurors about
whom we have the least information. We
know that he’s married and is a sheet metal
worker and works cranes and lives in … South
Lowndes, … and beyond that, we don›t really
have much information. He was a big question
mark in our minds because nobody really
developed his testimony much.
After the plaintiffs’ explanation, counsel for Holly Hill
asserted:
[T]hat was the basis of my [Batson] objection
as we did not have much information on him,
so the fact that we didn’t have any information
on him and he was one of their strikes, was a
cause of concern for us.
The trial court rejected the Batson challenge following
counsels’ exchange, stating:
Okay, well, as I understand a Batson Challenge, …
once they put forth an explanation, the burden
then shifts to you, [Holly Hill], to prove that it
was some type of purposeful discrimination.
I don’t hear that coming forward, so, for that
reason the Court’s going to deny your Batson
Challenge as to Juror Number [11].

11a
Appendix C
The trial court clarified this ruling in its order denying
Holly Hill’s motion for new trial, concluding that the
plaintiffs had offered race-neutral reasons for striking
Juror No. 11 and that the strike “was not racially based.”
On appeal, Holly Hill argues that the plaintiffs’
explanation for striking Juror No. 11 was facially
discriminatory, which required the trial court to uphold
its Batson challenge and disallow the strike. We disagree.
“To qualify as race-neutral, an explanation need not
be persuasive, plausible or even make sense. It must
simply be based on something other than the race of
the juror.” O’Hannon v. State, 240 Ga. App. 706, 707 (1)
(524 SE2d 759) (1999) (citation and punctuation omitted).
Absent discriminatory intent inherent in the proponent’s
explanation, “the reason offered will be deemed race
neutral.” Id. (citation and punctuation omitted). See also
Toomer v. State, 292 Ga. 49, 54 (2) (b) (734 SE2d 333)
(2012) (“[T]o carry the burden of production at step two,
the proponent of the strike need not offer an explanation
that is concrete, tangible, or specific. The explanation
need not even be case-related. The explanation for the
strike only needs to be facially race-neutral.”) (citation
and punctuation omitted).
The (1) plaintiffs’ explanation for the strike referenced
Juror No. 11’s employment, his area of residence, and the
lack of other information about him. These characteristics
are facially race-neutral. See Trice v. State, 266 Ga.
102, 103 (2) (464 SE2d 205) (1995) (“The nature of a
prospective juror’s employment is not a characteristic
that is peculiar to any race.”) (citations and punctuation

12a
Appendix C
omitted); Smith v. State, 264 Ga. 449, 450 (1) (448 SE2d
179) (1994) (prosecutor’s belief that “all residents, black
or white, of a particular neighborhood might be biased
against the State’s witnesses” was racially neutral).
Nothing in the plaintiffs’ explanation or the record
associates these characteristics with race; sheet metal
workers living in south Lowndes County can presumably
be of any race. See Jones v. State, 240 Ga. App. 339, 341 (1)
(523 SE2d 402) (1999) (prosecutor’s fear that prospective
juror might be “overly sympathetic” to the defendant
was facially race-neutral because “people of any race
can experience hardships in life”). Compare Congdon v.
State, 262 Ga. 683, 684-685 (424 SE2d 630) (1993) (decision
to peremptorily strike jurors “because they were black
residents of Ringgold” was not race-neutral).
We recognize that plaintiffs’ counsel expressed a
belief that individuals from south Lowndes County might
not be “friendly towards” an African-American claimant.
But the explanation for the strike did not reference the
race of south Lowndes County residents or Juror No. 11.
It was race-neutral as to them. And although the trial
court could have determined in addressing the third
Batson prong that counsel’s explanation was pretextual,
“the trial court’s decision on the ultimate question of
discriminatory intent represents a finding of fact of the
sort accorded great deference on appeal.” Smith, supra
at 451 (1) (citation omitted). We discern no clear error in
the trial court’s conclusion, based on the totality of the
circumstances, that Holly Hill failed to prove racially
discriminatory intent with respect to the strike of Juror
No. 11. See id. at 450-451 (1) (noting that a peremptory

13a
Appendix C
strike based upon where a prospective juror resides raises
“concerns about the potential for cloaking discriminatory
motives in only marginally neutral justifications,” but
finding that the trial court did not clearly err in deeming
the strike race-neutral) (citation and punctuation omitted).
This claim of error, therefore, does not require reversal.
2. Holly Hill further argues that the trial court erred
in denying its motion for directed verdict on plaintiffs’
negligent staffing claim. A trial court may direct a
verdict only “[i]f there is no conflict in the evidence as to
any material issue and the evidence introduced, with all
reasonable deductions therefrom, [demands] a particular
verdict[.]” OCGA § 9-11-50 (a). In reviewing the trial
court’s ruling on a motion for directed verdict, we construe
“the evidence and any doubts or ambiguities in favor of the
party opposing the motion[.]” Strickland v. Hosp. Auth. of
Albany/Dougherty County, 241 Ga. App. 1, 3 (1) (b) (525
SE2d 724) (1999) (citation and punctuation omitted).
With respect to staffing, the plaintiffs alleged at trial
that Holly Hill negligently failed to staff the October 25,
2012 night shift with someone who could have properly
assessed Bobby’s condition. Though the plaintiffs couched
this claim in terms of ordinary negligence, Holly Hill
countered that the staffing decision required professional
nursing judgment, bringing the claim within the realm of
professional negligence that had to be — but was not —
supported by expert testimony. The trial court rejected
Holly Hill’s argument and denied its motion for directed
verdict. See Dent v. Mem. Hosp. of Adel, 270 Ga. 316, 318
(509 SE2d 908) (1998) (whether negligence alleged by

14a
Appendix C
plaintiffs constituted ordinary negligence or professional
malpractice is a question of law for the trial court). We
find no error.
Kaye Frazier testified that she was responsible for
scheduling Holly Hill’s staff, which included Certified
Nursing Aides (“CNAs”), LPNs, and RNs. CNAs are staff
members who assist residents with daily living tasks, such
as bathing and eating. CNAs report to LPNs, who, in turn,
report to RNs. Although LPNs are licensed nurses, they
are not qualified to perform certain functions that RNs are
trained to perform, such as assessing a patient’s condition
and arriving at a nursing diagnosis that “identifies the
nature of the problem from a nursing standpoint and the
suspected causes.”
For the night shift beginning on October 25, 2012,
Frazier assigned three LPNs to work at the facility. As
was routine at the time, RNs were not scheduled to work
the night shift, and no nurse on duty was qualified to
perform an independent nursing assessment of a resident’s
medical condition. Frazier explained that governmental
regulations only required Holly Hill to have an RN in the
facility eight consecutive hours per day. She chose to staff
the facility with an RN during the day shift, rather than
the night shift, “because at night most of the residents
are asleep.” She also admitted, however, that Holly Hill
was required to staff above the governmental minimum
requirements if necessary to meet patient needs.
Holly Hill’s corporate representative testified that
staffing decisions were made “based on historically

15a
Appendix C
what has been done and then based on the judgment of
the nurses who are at the facility and particularly Ms.
Frazier, as to what staff members they need and where.”
According to the representative, Frazier determined the
numbers and types of staff to place on each Holly Hill unit
based on her knowledge and nursing judgment. But the
representative conceded that these decisions were made
in collaboration with the facility administrator, who “is
responsible overall for the operation of the facility.” The
evidence further showed that “RNs cost the facility more
than LPNs” because the hourly rate for an RN is greater
than that for an LPN.
“Claims of allegedly negligent administrative acts
which do not require professional knowledge or skill
assert ordinary negligence.” Peterson v. Columbus Med.
Center Foundation, 243 Ga. App. 749, 754 (2) (533 SE2d
749) (2000) (citation omitted). Holly Hill offered evidence
that Frazier exercised her professional judgment when
making staff shift assignments. The facility administrator,
however, also participated in staffing decisions. And Holly
Hill has cited no evidence that the overall determination
regarding how many RNs were available for Frazier to
schedule was made by a medical professional or constituted
a medical decision, rather than a business decision based
on the higher cost of paying RNs.
The evidence demonstrated that LPNs were not
trained to assess the condition of residents such as
Bobby, that Holly Hill routinely elected not to employ an
RN on the night shift, and that nursing home residents
“can get sick any time of the day or night.” Plaintiffs

16a
Appendix C
also offered expert testimony that the delay in assessing
Bobby caused his condition to progressively worsen,
contributing to his suffering and the “downward quick
spiral that … ultimately [led] to his death.” Given these
circumstances, the (2) evidence supported the conclusion
that Holly Hill engaged in business-related ordinary
negligence by forcing Frazier to choose only one shift
in which to schedule an RN, leaving the night shift staff
without anyone trained to adequately evaluate residents.
Because this staffing claim did not sound in professional
negligence, the trial court properly denied Holly Hill’s
motion for directed verdict. See Upson County Hosp. v.
Head, 246 Ga. App. 386, 391 (1) (540 SE2d 626) (2000)
(claims sound in ordinary negligence when stated against
hospital based on the acts or omissions of (1) employees
who were not medical professionals and (2) medical
professionals who were not exercising medical judgment);
see also Lamb v. Candler Gen. Hosp., 262 Ga. 70, 71 (1)
(413 SE2d 720) (1992) (“A hospital owes to its patients only
the duty of exercising ordinary care to furnish equipment
and facilities reasonably suited to the uses intended and
such as are in general use under the same, or similar,
circumstances.”) (citations, punctuation and emphasis
omitted). Compare St. Mary’s Health Care System v.
Roach, 345 Ga. App. 274, 278 (1) (811 SE2d 93) (2018)
(execution of hospital policy regarding availability of
radiologists on night shift involved exercise of professional
judgment because policy explicitly allowed immediate
consult with on-call radiologist, and emergency room
physician elected not to consult with radiologist after
reviewing x-ray herself).

17a
Appendix C
Case No. A19A1553
3. In their cross-appeal, the plaintiffs argue that the
trial court erred in allowing the jury to consider whether
to apportion fault to nonparties at the trial. Pursuant
to OCGA § 51-12-33 (c), “the trier of fact shall consider
the fault of all persons or entities who contributed to the
alleged injury or damages, regardless of whether the
person or entity was, or could have been, named as a party
to the suit.” According to the plaintiffs, the trial court
should have granted their motion for directed verdict on
apportionment as to Moss, Shannon, and SGMC because
no competent evidence supported a finding that these
nonparties contributed to the plaintiffs’ damages. 2 See
Southwestern Emergency Physicians v. Quinney, 347
Ga. App. 410, 427 (4) (819 SE2d 696) (2018) (“[T]he fault
of a nonparty cannot be considered for the purposes of
apportioning damages without some competent evidence
that the nonparty in fact contributed to the alleged injury
or damages.”) (citation and punctuation omitted). We
disagree.
Viewed favorably to Holly Hill, the party opposing
the motion for directed verdict, see Strickland, supra, the
(3) evidence showed that Moss, Shannon, and a team of
providers treated Bobby after he arrived at SGMC. Holly
Hill’s expert testified that Moss, Shannon, and the SGMC
team breached the standard of care by failing to timely
order necessary CT scans of Bobby’s abdomen and, once
2. The plaintiffs do not challenge the jury’s decision to
apportion fault to Tywon.

18a
Appendix C
the scans were finally ordered, cancelling those scans,
leaving Bobby to languish in the emergency room for hours
without proper assessment of his condition. According to
Holly Hill’s expert, Shannon and SGMC also breached the
standard of care by not immediately treating Bobby with
antibiotics. Holly Hill’s expert asserted that each breach
was egregious and individually caused Bobby’s death,
which resulted from the “negligent care that he received
at [SGMC].” Such testimony provided some evidence that
Moss, Shannon, and the SGMC providers breached the
standard of care when treating Bobby, contributing to his
injuries and, ultimately, his death.
On appeal, the plaintiffs argue that Holly Hill’s
evidence failed to meet the heightened negligence
standard applicable to emergency room situations. We
recognize that in medical malpractice actions “arising out
of the provision of emergency medical care in a hospital
emergency department,” physicians and health care
providers cannot be held liable “unless it is proven by clear
and convincing evidence that the physician or health care
provider’s actions showed gross negligence.” OCGA § 51-129.5 (c). But the term “emergency medical care” does not
include “medical care or treatment that occurs after the
patient is stabilized and is capable of receiving medical
treatment as a nonemergency patient[.]” OCGA § 51-129.5 (a) (5). And Holly Hill’s expert testified that Bobby’s
condition stabilized in the emergency room, at which point
a CT scan should have been conducted. Shannon (the
emergency room physician) further indicated that Bobby
was retained in the emergency department for a period
simply because a bed was not available in the hospital’s

19a
Appendix C
intensive care unit. Such testimony raised a question of
fact as to the applicability of OCGA § 51-1-29.5 (c). The
trial court, therefore, properly submitted the issue to the
jury. See Bonds v. Nesbitt, 322 Ga. App. 852, 855-856 (1)
(747 SE2d 40) (2013) (doctor’s determination that patient
was stable raised a jury question as to whether the patient
“at some point had stabilized and was capable of receiving
medical treatment as a nonemergency patient within
the meaning of OCGA § 51-1-29.5 (a) (5)”) (punctuation
omitted).
Moreover, assuming OCGA § 51-1-29.5 (c) applied,
“liability [is] authorized where the evidence, including
admissible expert testimony, would permit a jury to
find by clear and convincing evidence that the [medical
providers] caused harm by grossly deviating from the
applicable medical standard of care.” Abdel-Samed v.
Dailey, 294 Ga. 758, 765 (3) (755 SE2d 805) (2014). Holly
Hill’s expert asserted that the breaches of care committed
by Moss, Shannon, and SGMC were egregious, resulting
in the provision of “astonishingly poor care” to Bobby
in the SGMC emergency room. Given this testimony, as
well as evidence regarding delays in treatment, the jury
would have been authorized to find by clear and convincing
evidence that these nonparty medical providers acted
with gross negligence. See id. at 765-767 (3) (evidence that
emergency room physician waited hours to contact and
transfer patient to surgeon for emergency hand surgery
raised jury question as to whether physician acted with
gross negligence under OCGA § 51-1-29.5).

20a
Appendix C
The record evidence raised jury questions as to
whether the independent actions of Moss, Shannon,
and SGMC contributed to the damages suffered by the
plaintiffs. Under these circumstances, the plaintiffs were
not entitled to a directed verdict on the fault allocation
issue, and the trial court properly asked jurors to assess
the individual fault of these nonparties under OCGA
§ 51-12-33. 3
4. Alternatively, the plaintiffs argue that even if the
trial court properly submitted the apportionment issue to
the jury, the (4) special verdict form was confusing because
it listed the four nonparties (Moss, Shannon, SGMC,
and Tywon) on separate lines, allowing an individual
assignment of fault as to each. In the plaintiffs’ view,
Moss and SGMC were — at most — vicariously liable for
the actions of Tywon and Shannon. “[G]enerally, where
a party’s liability is solely vicarious, that party and the
actively-negligent tortfeasor are regarded as a single
tortfeasor.” Trabue v. Atlanta Women’s Specialists, 349
Ga. App. 223, 231 (2) (825 SE2d 586) (2019) (citation and
punctuation omitted). Citing this principle, the plaintiffs
claim that Moss and SGMC should not have been listed
separately on the verdict form. As found in Division 3,
however, Holly Hill offered evidence that these nonparties
3. Citing Amu v. Barnes, 286 Ga. App. 725 (650 SE2d 288)
(2007), aff’d, 283 Ga. 549 (662 SE2d 113) (2008), the plaintiffs argue
that apportionment is inappropriate because “Holly Hill remain[s]
accountable for [any] subsequent malpractice” that occurred at
SGMC. The Amu decision, however, involved intervening negligent
actors, not apportionment under OCGA § 51-12-33. See Amu, supra
at 731-735 (2). It has no application here.

21a
Appendix C
independently breached the standard of care owed to
Bobby and proximately caused damage to the plaintiffs.
This argument, therefore, lacks merit.
The plaintiffs further note that the jury apportioned
the same amount of fault to Moss and Tywon (35 percent)
and the same amount to SGMC and Shannon (5 percent).
They claim that the jury necessarily found Moss and
SGMC only vicariously liable, but that the structure
of the verdict form confused jurors, causing them to
improperly apportion independent fault to them. Again,
however, jurors were authorized to find these nonparties
independently at fault, and “we cannot go behind the jury’s
verdict to determine how the damages were apportioned.”
City of Gainesville v. Waters, 258 Ga. App. 555, 558 (2)
(574 SE2d 638) (2002).
Moreover, the (5) plaintiffs’ objection to the verdict
form at trial focused on their claim that, as a matter of
law, Moss, Shannon, and SGMC were not independently
at fault and thus should not have been listed separately as
nonparties subject to apportionment. The plaintiffs have
not cited — and we have not located — any evidence that
they requested that the verdict form delineate whether
jurors found the nonparties at fault based on direct versus
vicarious liability. Although plaintiffs’ counsel reacted at
trial to the jury’s verdict by “wonder[ing]” whether the
fault assigned to Moss was derivative of Tywon’s actions,
he did not object or request any action by the trial court
to clarify the jury’s verdict. To the extent the plaintiffs
now argue that the verdict form was confusing and/or
misleading because it failed to properly distinguish the

22a
Appendix C
basis for the jury’s apportionment determination, that
claim has been waived. See Auto-Owners Ins. Co. v.
Dolan, 342 Ga. App. 179, 182 (2) (803 SE2d 104) (2017) (“In
the absence of … specific and timely objections, a party
waives error relating to the manner in which questions on
a special verdict form are submitted to the jury.”) (citation
and punctuation omitted).
Judgments affirmed. McFadden, C. J., and McMillian,
P. J., concur.

23a
Appendix
APPENDIX D — ORDER
OF D
THE STATE COURT
OF LOWNDES COUNTY, STATE OF GEORGIA,
DATED OCTOBER 26, 2018
IN THE STATE COURT OF LOWNDES COUNTY
STATE OF GEORGIA
Civil Action File No. 2014SCV287
GREGORY COPELAND et al.,
Plaintiffs,
v.
LOWNDES COUNTY HEALTH SERVICES, LLC
D/B/A HERITAGE HEALTHCARE
AT HOLLY HILL,
Defendant.
ORDER ON DEFENDANT’S
MOTION FOR NEW TRIAL
Before the Court is defendant Lowndes County Health
Services, LLC’s motion for new trial. The motion seeks
a new trial on multiple grounds following the entry of
judgment on the jury’s verdict in favor of Plaintiffs. Based
on the Court’s review of the record, the trial transcripts,
and the briefing and argument of counsel in connection
with the motion, the Court finds as follows:

24a
Appendix D
Batson Challenge Issue
Defendant moves for a new trial based on an alleged
improper peremptory challenge to a juror in violation
of Batson v. Kentucky, 476 U.S. 79 (1986). See also
Edmonson v. Leesville Concrete Co., 500 U.S. 614 (1991);
Fludd v. Dykes, 863 F.2d 822 (11th Cir. 1989) (applying
Batson to civil trials). Specifically, for purposes of the
pending motion, Defendant claims that the Plaintiffs’
challenge to juror 11, Mr. Voigt, violated Batson.
Mr. Voigt was unresponsive to any questioning in
voir dire except during the Court’s own questioning,
when he stated his name, his place of employment, his
wife’s name and occupation, and his place of residence.
Transcript v. 1, p. 38. Otherwise, he did not provide any
further information when the panel was questioned by
counsel for either party. Defendant focuses on a reference
that Plaintiffs’ counsel made to the location where Mr.
Voigt lived, stating that the area “may not be a area that
is friendly towards African Americans which out client
is.” Defendant thus contends that the peremptory strike
of Mr. Voigt was impermissibly race-based. The Georgia
Court of Appeals has explained that
Batson challenges are analyzed by a threeprong test: (1) the opponent to the peremptory
challenge must establish a prima facie case of
purposeful discrimination by demonstrating
that the totality of the relevant facts gives rise
to an inference of discriminatory purpose; (2)
the proponent of the challenge is then required

25a
Appendix D
to articulate a concrete, tangible, race-neutral
rationale for the strike; and (3) the opponent
must carry the burden of showing that the
rationale is merely a coverup to purposeful
racial discrimination.
Brown v. Egleston Children’s Hosp., 255 Ga. App. 197,
198 (2002) (internal quotations and formatting omitted),
citing Holt v. Scott, 226 Ga. App. 812, 816 (1997), Purkett
v. Elem, 514 U.S. 765, 767 (1995), and McKenzie v. State,
227 Ga. App. 778 (1997).
The Court notes that during the discussion of Mr.
Voigt, Plaintiff’s counsel expressed concern about his
type of employment and, in particular, the fact that he was
non-responsive in voir dire. Indeed, the lack of information
regarding Mr. Voigt, by both parties, was apparently the
primary concern. To properly frame the discussion and
the actual objection by defense counsel, the Court quotes
the following dialogue from the discussion regarding
the Batson challenge, which followed the statement of
Plaintiff’s counsel quoted above:
MR. KEN CONNOR (Plaintiffs’ Counsel):
In addition, Judge, this is one of the jurors about
whom we have the least information. We know
that he’s married and is a sheet metal worker
and works cranes and lives in South Lowden·
South Lowndes, I’m sorry, and beyond that, we
don’t really have much information. He was
a big question mark in our minds because
nobody really developed his testimony much.

26a
Appendix D
MR. MATHIS (Defendant’s Counsel):
And Your Honor, that was the basis of my
objection as we did not have much information
on him, so the fact that we didn’t have any
information on him and he was one of their
strikes, was a cause of concern for us.
Transcript v. 2, p. 88 (emphasis added). Significantly,
defense counsel’s statement that “that was the basis
of my objection as we did not have much information
on him, so the fact that we didn’t have any information
on him and he was one of their strikes, was a cause of
concern for us” defines the scope of the objection to the
propriety of exercising a peremptory strike based on
non-responsiveness. In this regard, both the Georgia
Supreme Court and Court of Appeals have held that a
lack of responsiveness is a sufficient race-neutral basis
for a peremptory strike. Trice v. State, 266 Ga. 102, 103
(1995); Norfolk S. Ry. Co. v. Perkins, 224 Ga. App. 552,
554 (1997); Thompson v. State, 194 Ga. App. 163 (1990);
Evans v. State, 183 Ga. App. 436, 439 (1987). Moreover,
with respect to Plaintiff’s counsel’s reference to Mr.
Voigt’s employment, the Georgia Supreme Court, citing
the United States Supreme Court, has held that “[t]
he nature of a prospective juror’s employment ‘is not a
characteristic that is peculiar to any race.’” Trice v. State,
266 Ga. 102, 103 (1995), citing Purkett v. Elem, 514 U.S.
765 (1995). Therefore, any reference to employment does
not constitute a valid basis for a Batson challenge, and,
indeed, that employment may serve as a race-neutral basis
for a peremptory strike.

27a
Appendix D
Although the Defendant now argues that Plaintiff’s
counsel’s passing reference to “demographics” and the
possibility of individuals from the area where Mr. Voigt
resided might be prejudiced against African Americans is
facially discriminatory, the Court is not convinced. First,
it is not at all clear that a reference to “demographics” is,
by itself, per se discriminatory in this context. In Congdon
v. State, 262 Ga. 683 (1993), the Georgia Supreme Court
disapproved of the striking African American jurors
who were from a particular geographic area (Ringgold),
where the strikes were “for no reason other than that
they were black citizens of Ringgold.”1 (emphasis added).
The Supreme Court noted that the concerns were largely
based on significant underlying societal issues, including,
particularly, the fact that some within the Ringgold
African American community had harshly criticized the
sheriff, and that using the demographics (or geography) as
a proxy to exclude African Americans generally was not
permitted under Batson. This scenario is distinguishable
from the circumstances here, where neither party had
information about Mr. Voigt other than the bare personal
information he shared at the beginning of voir dire. As
noted above, both the lack of information about Mr. Voigt
and his occupation are legitimate bases for exercising a
peremptory strike. Defendant also cites Clayton v. State,
341 Ga. App. 193 (2017) (physical precedent only), but
Clayton is of only limited persuasive authority as it is nonbinding precedent because a majority of the court did not

1. In reaching this result, the Supreme Court cited a dissent
from a denial of certiorari at the United States Supreme Court.
Lynn v. Alabama, 493 U.S. 945 (1989) (Marshall, J, dissenting).

28a
Appendix D
concur fully in the decision. 2 Therefore, the Court finds
that, in the context of this case, based upon the discussion
with the Court when the issue was raised at trial, the
actual basis of the strike of Mr. Voigt was not facially
racially based. Therefore under a proper Batson analysis
and a consideration of the totality of the circumstances,
see Coleman v. State, 301 Ga. 720, 724 (2017), Plaintiffs
have carried their burden of showing a non-discriminatory
basis for the strike, particularly given the objection that
was actually asserted by defense counsel, and the Court
properly rejected the challenge during trial.
Based on the proffered objection to Mr. Voigt’s strike,
and the Court’s determination, as a factual matter, that
any comments about potential demographics of Mr. Voigt
were not facially racially discriminatory, the Court finds
that the Plaintiffs’ peremptory strike was not raciallybased and therefore the motion for new trial on this ground
is DENIED.
Other grounds for new trial
In addition to the Batson issue, Defendant also
claims that a new trial is required because of an allegedly
prejudicial issue concerning a shadow jury employed by
Defendant, an improper determination by the jury of
ordinary negligence, and finally under the general grounds
as provided by O.C.G.A. §§ 5-5-20 (“Verdict contrary to
2. See Ct. App. R. 33.2. The basis of the Court of Appeals’
finding of a racially based motive in Clayton involved a juror’s
having gold teeth, facts that are not relevant here.

29a
Appendix D
evidence and principles of justice and equity”) and 5-5-21
(“Verdict against weight of evidence”). Upon review of
the record of the trial, and having been present during
the presentation of evidence at trial, the Court hereby
DENIES the motion for new trial on these grounds.
SO ORDERED this 26 day of October, 2018.
/s/					
Judge Ellen S. Golden
State Court of Lowndes County

30a
Appendix E OF JURY TRIAL
APPENDIX E — EXCERPT
TRANSCRIPT OF THE STATE COURT OF
LOWNDES COUNTY, STATE OF GEORGIA
IN THE STATE COURT OF LOWNDES COUNTY
STAE OF GEORGIA
CIVIL ACTION
FILE NO: 2014-SCV-0287
GREGORY COPELAND, INDIVIDUALLY AND
AS SON OF BOBBY COPELAND AND MARIER
HOUSE, AS ADMINISTRATOR OF THE ESTATE
OF BOBBY COPELAND, DECEASED,
Plaintiffs,
vs.
LOWNDES COUNTY HEALTH SERVICE, LLC,
D/B/A HERITAGE HEALTHCARE
AT HOLLY HILL,
Defendant.
Lowndes County Judicial Complex,
Courtroom 4B & 4C 01-17-2018
JURY TRIAL TRANSCRIPT OF CASE VOLUME II OF X
THE HONORABLE ELLEN S. GOLDEN, Presiding

31a
Appendix E
[TABLES INTENTIONALLY OMITTED]
***
[82]MR. CALEB CONNOR: Okay, all right, so...
MR. KEN CONNOR: So, struck 10?
MR. CALEB CONNOR: No, but he’s - no, that’s Juror
Number 10. She’s Juror Number 10
MR. KEN CONNOR: Oh, okay. She’s on there, yeah.
JUDGE: Okay, so are we clear on who the juror are?
MR. ANSPACH: Yes.
MR. CALEB CONNOR: Yes, ma’am.
JUDGE: All right, so, my question to Plaintiffs’
counsel, is there any objection to the jury selection
process?
MR. KEN CONNOR: No, Your Honor.
JUDGE: All right so, we’re ready to proceed?
MR. KEN CONNOR: Yes, Your Honor.

32a
Appendix E
BATSON CHALLENGE AND
DISCUSSIONS THEREON
MR. MATHIS: Your Honor, we do have a - I mean, a
Batson Challenge of the people who were struck on their
side.
MR. KEN CONNOR: You have what?
MR. MATHIS: A Batson Challenge.
JUDGE: Okay, on who?
MR. MATHIS: Your Honor, the fact that out of the
6 people that they struck were all White, all 10- 1, 2, 3,
4 - four White males and two White females. 22
MR. CALEB CONNOR: I may have a Batson
Challenge on...
MR. KEN CONNOR: ...on they’re
[83]MR. KEN CONNOR: ...on they’re not especially
stationed on our end.
MR. CALEB CONNOR: Right. You can’t have a
Batson Challenge on it.
MR. KEN CONNOR: When they’re not a racially
distinct minority.
MR. CALEB CONNOR: They make it the majority...

33a
Appendix E
JUDGE: I don’t know - I don’t know about that. I think
you can. Do you want to go look that up?
MR. CALEB CONNOR: Yeah.
JUDGE: Well, I have to look it up. All right. Okay.
I’ll go look it up.
MR. KEN CONNOR: What’s the nature of the
challenge?
JUDGE: Okay, I’m looking this up real quick. The
way I understand it, they can’t use a - you can’t use a
preemptory challenge, um, neither party, to exclude
potential jurors based on race, gender, and probably
ethnicity, so, I can continue to research it; but what’s the
basis of your challenge?
MR. MATHIS: The basis of the challenge is that all
of the individuals in which they removed from the Jury,
they’re either a White male or White female and they have
not out of the group of people, which clearly is a mixed
group of jury pool members, that there’s absolutely no
African American or other races that were excluded.
[84]JUDGE: From - by Plaintiffs’ counsel?
MR. MATHIS: Correct.
JUDGE: Okay. Do you - you have the burden of
proving it - showing that, so do have an explanation for...

34a
Appendix E
MR. CALEB CONNOR: Which juror?
MR. KEN CONNOR: Yes, Your Honor.
JUDGE: Which juror are we talking about?
MR. KEN CONNOR: Do we want do this in - do we
want to do this while the Jury is still in the room?
JUDGE: I can send them out.
MR. CALEB CONNOR: I wish you would, yeah.
MR. KEN CONNOR: I think you should.
JUDGE: Okay.
MR. KEN CONNOR: Preferably.
MR. CALEB CONNOR: I won’t tell them why, will
you?
MR. KEN CONNOR: Yeah, exactly.
JUDGE: Okay. All right, ladies and gentlemen of the
Jury, I’m going to ask that you follow the Bailiff back into
Courtroom 4D and I’ve got to hear a matter and then I’ll
be calling back for you, okay? Thank you.
(Jury Panel exits Courtroom.)
JUDGE: All right, I’ll hear from Defense.

35a
Appendix E
MR. MATHIS: Your Honor, we would just like to
renew our Batson Challenge with regards to the members
that were struck by the Plaintiff. Out of the mixed pool
of jurors in [85]which was comprised of both African
American and of Causation jury pool members, the
individuals in which Plaintiffs counsel struck were four
White males and two White females and the cause we
believe has to do with race versus any other reason.
JUDGE: Okay.
MR. KEN CONNOR: At the bench, Judge, as I
understood it, counsel had invoked gender as well, and I
understand that’s not a basis for the Challenge.
MR. MATHIS: No. If I said gender, I didn’t mean- I
meant race.
JUDGE: Okay, so, I’ll hear from Plaintiffs’ counsel.
Um, first of all, I think, um, the burden does lie with
you, um, Defense counsel on - on asserting these Batson
Challenges. Do you have the names of each of the
Plaintiffs’...
MR. MATHIS: I do, Your Honor.
JUDGE: Okay.
MR. CALEB CONNOR: Is there a particular chjuror that they’re challenging.
JUDGE: All of them. It sounds like.

36a
Appendix E
MR. MATHIS: Yes.
JUDGE: Okay, all right, so, do you want to start with,
um, what are they? What are the names?
MR. MATHIS: Ah, Number 11, Britt Voight.
MR. CALEB CONNOR: Your Honor, we can just go
down the list as we struck them.
[86]MR. KEN CONNOR: Can we just...
MR. MATHIS: Oh, sure, we can go through them.
JUDGE: We can do that.
MR. MATHIS: Or we can just go in order, Your Honor,
if that’s easier?
JUDGE: Okay.
1.

MR. MATHIS: They’re strikes Number 4 was number
JUDGE: And that was, ah...
MR. MATHIS: And her name is Margaret Chatelain.

JUDGE: Okay, I’ll hear from Plaintiffs’ counsel on
that.

37a
Appendix E
MR. CALEB CONNOR: Ms. Chatelain obviously
had a lot to say during voir dire, which has us concern
about her influencing the jury pool. She stated that she
would judge a family for putting, ah, their loved-ones in
a nursing home.
JUDGE: I do remember hearing that.
MR. CALEB CONNOR: That’s blatantly, I mean against our interest.
JUDGE: Okay, so I’ll hear from Defense counsel on
that issue, on, um, the Challenge concerning Margaret
Chatelain? Chatelain?
MR. KEN CONNOR: Chatelain.
JUDGE: Okay.
MR. KEN CONNOR: And she also indicated, Your
Honor, that she had been asked to perform work that she
was not [87]qualified to do and that’s precisely one of the
issues in this case. We maintain that Ms. Jenkins was
called upon to perform work that she’s not licensed for
and is not within the scope of her practice.
JUDGE: Okay. I believe once they state a race-neutral
reason for their strike, the burden shifts back to you now,
Mr. Mathis.
MR. MATHIS: Okay, um, I’m looking for my notes. I
don’t have any notes on that one, Your Honor, so we will
withdraw number 1.

38a
Appendix E
JUDGE: All right, it’s - all right, so you don’t want
me to rule on - you’re withdrawing that one. Okay,
withdrawing Batson Motio- um, Challenge on - in regard
to juror number 1. Okay.
MR. MATHIS: Correct, Your Honor.
JUDGE: All right, so the next one is?
MR. MATHIS: 11.
JUDGE: That would be Britt Green Voigt, is that
right?
MR. CALEB CONNOR: Yes, ma’am.
JUDGE: Okay.
MR. CALEB CONNOR: So, Mr. Voigt, works in a
sheet metal factory. He works in South Lowndes County
which based off our demographic research of this group
and with our discussion with other counsel who are right
in this area, [88]suggested that they may not be a area that
is friendly towards African Americans which our client is.
So, we have concerns based off his blue-collar employment,
as well as his living demograph- the demographics of
where he resides that he may have some innate prejudice
toward our client.
MR. KEN CONNOR: In addition, Judge, this is one of
the jurors about whom we have the least information. We
know that he’s married and is a sheet metal worker and

39a
Appendix E
works cranes and lives in South Lowden- South Lowndes,
I’m sorry, and beyond that, we don’t really have much
information. He was a big question mark in our minds
because nobody really developed his testimony much.
MR. MATHIS: And Your Honor, that was the basis of
my objection as we did not have much information on him,
so the fact that we didn’t have any information on him and
he was one of their strikes, was a cause of concern for us.
JUDGE: Okay, well, as I understand a Batson
Challenge, that once they put forth an explanation, the
burden then shifts to you, Mr. Mathis, to prove that it was
some type of purposeful discrimination. I don’t hear that
coming forward, so, for that reason the Court’s going to
deny your Batson Challenge as to Juror Number - what
was his number?
MR. MATHIS: 11.
JUDGE: 11, which was Plaintiffs’ I think first...
MR. MATHIS: Number 1 strike. Yes, Your Honor.
[89]JUDGE: Yeah, the first strike. Okay, overruled
that one. What’s the next one? Mr. Mortonson?
MR. MATHIS: No, 14.
MR. CALEB CONNOR: Well, he’s just going down
the list.

40a
Appendix E
JUDGE: Oh, okay, okay. So, that would be Granger
Ratliff? Is that his...
MR. CALEB CONNOR: Yes. Yes, ma’am. Mr. Ratliff
also comes from a blue-collar background. He testified
that he works in a paper mill and his wife is a small
business owner. That’s really the thing that got us. You
know, business owners fear litigation and lawsuits and
typically are more conservatives.
JUDGE: Okay, I’ll hear from you, Mr. Mathis as to
the Defense, since you have the burden.
MR. MATHIS: Your Honor, we would just renew our
same motion as to the last one, as we just didn’t believe
there was enough information out - with regards to the
information that was rendered during the course of the
voir dire.
MR. K EN CONNOR: A nd we ag ree that the
information is scant beyond what we’ve related, that little
bit that we had, ah, but, so, he’s a big question mark. And
it’s difficult with 36 jurors, we acknowledge that, too,
without going even- taking even more time to develop
all that information fully, but on the basis of the limited
information we had we - and Mr. [90]Connor- Mr. Caleb
Connor’s articulated that was the basis for our strike.
JUDGE: Okay, well, under those circumstances, the
court is going to deny defense counsel’s Batson Challenge,
um, so, as to Juror Number 14, which was Plaintiffs’
preemptory challenge number 6, as I understand.

41a
Appendix E
MR. KEN CONNOR: Thank you, Your Honor.
JUDGE: All right next?
MR. MATHIS: 15.
MR. KEN CONNOR: 15.
MR. CALEB CONNOR: Your Honor, Ms. Wisenbaker
testified that she is a dental hygienist - or not testified, but
articulated that she was a dental hygienist. Typically, ah,
in medical malpractice cases, we do try to shy away from
folks with, ah, that work in the medical field or healthcare
field. She also said her husband owns a small business,
which for the same reasons previously discussed about
number 14, we have some concerns about that; and lastly,
she said she had family members at Pruitt Crestwood,
one of the Defendant’s sister facilities, so.
JUDGE: Okay, so I’ll from Defense counsel.
MR. MATHIS: Ah, regardless of the things that she
said, I don’t think there was, on behalf of the Defendant,
um, there wasn’t sufficient information to be able to
establish that she should be struck by - on behalf of the
Plaintiff.
[91]JUDGE: Well, hearing what I heard from Plaintiffs’
counsel as to the reasons they exercised their preemptory
strike, I - the Court finds it race-neutral and the Court is
going to overturn the Defense Counsels’ Batson Challenge
as to Plaintiffs’ preemptory strike, number 5, regarding
Juror Number 15, Trista Wisenbaker. Next.

42a
Appendix E
MR. MATHIS: Number 20.
MR. CALEB CONNOR: Mr. Mortonson is the next
one.
JUDGE: Okay.
MR. CALEB CONNOR: Um, he- Mr. Mortonson
testified that he ran programs for emotionally and
mentally disturbed kids. He also testified about his
potential health conflict that may create some problems.
Both of those issues, we felt were enough to let him go.
MR. KEN CONNOR: Well, in addition, Your Honor,
he indicated he had expensiv- extensive experience in
dealing with people with mental disabilities, including
paranoia and we’re concerned that he might import
those experiences and sort of become the resident expert
on mental disabilities which our decedent had several
diagnosis in that regard.
JUDGE: All right, so I’ll hear from Defense counsel,
Mr. Mathis?
MR. MATHIS: Your Honor, same objection as
the other one is we didn’t believe there was sufficient
information to establish a suitable reason to dismiss him
from this jury.
[92]JUDGE: Okay, well, having considered Plaintiffs
counsels’ representation to the Court as to why Juror
Number 20, Mr. Mortonson was - why they used their

43a
Appendix E
preemptory challenge to excuse him, the Court finds that
it was race-neutral and, therefore, the Court is going to
deny the Batson Challenge as to Juror Number 20, Billy
Mortonson, Jr. Okay. next.
MR. MATHIS: 27.
MR. KEN CONNOR: 27. Pieplow.
JUDGE: All right, is this the last one?
MR. CALEB CONNOR: YES, Ma’am. Mr. Pieplow
is a certified athletic trainer with medical training. His
wife is a PA. Those again for the reasons we described,
the experience in the healthcare field, we felt he was not
appropriate to serve on this jury.
MR. KEN CONNOR: One of the non-parties to
whom Defendant to seeks to assign fault, is a physician’s
assistant and also, you’ll recall that Mr. Pieplow indicated
that he took his cues from the doctors in terms of the chain
of command and there are all kind of issues about the
appropriateness of the chain of command and one of the
central witnesses and the non-parties to whom fault was
going to be asked to be allocated is in the same occupation
as his wife.
JUDGE: Okay, I’ll hear from Defense counsel.
MR. MATHIS: Same objection, Your Honor, is we did
[93]not believe there was sufficient information gathered
throughout the course of voir dire to establish a basis for
excluding this witness.

44a
Appendix E
JUDGE: Okay, well hearing Plaintiffs counsels’
explanation as to why Juror Number 27, Philip Pieplow
was excused or why they exercised their preemptory
challenge, the Court finds that it was race-neutral and
therefore, the Court is going to overturn- or deny your
Batson Challenge as to that juror. So, is that all of them,
gentlemen?
MR. KEN CONNOR: Yes, Your Honor.
MR. MATHIS: Yes, Your Honor.
JUDGE: Okay, so, before I call the Jury in, um, so now
do - we now have an agreement as to the jurors?
MR. CALEB CONNOR: Yes, Your Honor.
MR. KEN CONNONR: Right.
MR. MATHIS: And now we just need to do alternates.
JUDGE: Right. So, we need - and usually what I do
instead of having the Clerk call four of the jury, is that
we go ahead and pick the four alternates.
MR. MATHIS: Sure.
JUDGE: So, do you need the jurors brought back in
for that right now or do we want to go ahead and do we
want to go ahead and do that?
MR. KEN CONNOR: I think our Court Reporter
has a concern.

45a
Appendix E
[94]COURT REPORTER: Your Honor, as to Juror
Number 15, I have down you overturned the Batson
Challenge, I’d just like to clarify that.
JUDGE: Oh, I denied the...
MR. CALEB CONNOR: She denied.
JUDGE: ...Batson Challenge. I’m sorry if I didn’t
articulate that way.
COURT REPORTER: I just wanted to make sure.
JUDGE: Okay, yeah. I denied Defense counsel’s
Batson Challenge as to Juror Number 15.
COURT REPORTER: Thank you, Judge.
JUDGE: Okay. So, I can bring the jurors back in
and we can do the alternates or do you want to - are y’all
comfortable enough to...
MR. KEN CONNOR: May we...
MR. CALEB CONNOR: Let’s see if we can take a
second.
MR. KEN CONNOR: ...take a look at our charts first
and may, ah...
JUDGE: So, you’d be picking from, if I’m - you’d be
picking from 30...

46a
Appendix E
MR. MATHIS: 30...
JUDGE: ...31...
MR. MATHIS: ...through 34.
JUDGE: ...33 - wait - I’m I doing that right.
MR. CALEB CONNOR: No, we have 30, 31...
[95]MR. MATHIS: 30, 31, 33 and 34.
JUDGE: Yes.
MR. CALEB CONNOR: So, we ignore Ms. Brooks,
correct?
JUDGE: Yes, because she’s in the next four. I mean,
I can bring them back in.
MR. KEN CONNOR: No, we’re fine.
MR. MATHIS: I think we can do this now.
MR. KEN CONNOR: So, we struck - do we just strike
one or two.
MR. MATHIS: Just one - one each.
JUDGE: Just one and it’s a piece.
MR. CALEB CONNOR: Who’s first? Do they go first?

47a
Appendix E
MR. MATHIS: Do we have the sheet?
JUDGE: She’s going to hand it between you. So,
Madame Clerk, you understand they’re picking the
alternates between juror number 30, 31, 33 and 34?
DEP. CLERK: Yes, ma’am.
JUDGE: Okay, she’ll hand it between you if y’all are
ready to do that.
MR. KEN CONNOR: And what do we put down as
our number on this list?
JUDGE: I would say alternate P1 or alternate P,
because you only get one.
MR. MATHIS: A-P.
(Alternate jurors struck by counsel.)
[96]DEP. CLERK: That’s good. That’ll be fine. Um,
Defendant chose 30. Plaintiff chose 31.
JUDGE: So, Defendant struck 30?
DEP. CLERK: Yes, ma’am.
JUDGE: 31.
DEP. CLERK: And Plaintiff struck 31.

48a
Appendix E
JUDGE: So, our two are two alternates then are
Erika Downing and Sheri Gordon, is that right?
DEP. CLERK: Yes, ma’am.
JUDGE: So, are you - are you comfortable oncebecause what I’ll do is I’ll call them in and then I’m going
to have you call. I’ll say, ‘Madame Clerk, will you call the
names of the jurors.’ I’m going to have you say them.
DEP. CLERK: And whenever I do that, do I call them
alternates or I just call their names?
JUDGE: Yeah - I’m, in fact, I’m going to address that
with them. No, you treat them like everybody else.
DEP. CLERK: Okay.
JUDGE: Just call out their names.
DEP. CLERK: Yes, ma’am.
JUDGE: All right, there’s another thing I want to
take up with you, um, gentlemen. I know some judges
tell jurors when their selected, they’re alternates. I don’t.
MR. KEN CONNOR: We agree.
JUDGE: I don’t tell them until they go - until the [97]
Jury is sent out to deliberate and then I’m, like, by the way,
Mr. So-and-So and Mrs. So-and-So, you’re an alternate
and then I keep them separate.

49a
Appendix E
MR. MATHIS: We agree, Your Honor.
MR. CALEB CONNOR: Yes, Your Honor.
JUDGE: But I do see where some judges tell them
ahead of time and I - no.
MR. KEN CONNOR: And then they switch off.
MR. CALEB CONNOR: Right.
JUDGE: Yes. So, I’m not doing that.
MR. CALEB CONNOR: We agree.
Judge: I just wanted to make sure you know that and
y’all are in agree with that.
MR. MATHIS: Yes. We have - we prefer that.
JUDGE: Now, I need to ask you, is there any objection
to the jury selection process?
MR. KEN CONNOR: No, Your Honor, on - by the
Plaintiff.
MR. MATHIS: No, Your Honor, on behalf of the
Defendants.
JUDGE: Okay, what about the jury selection process
- any objections to the alternates that have been selected
from the par-

50a
Appendix E
MR. KEN CONNOR: No, Your Honor.
JUDGE: Okay, none from the Plaintiff.
[98]MR. MATHIS: No, Your Honor.
JUDGE: Okay, so are we ready for the jurors to be
brought in and the Clerk to call the names of the jurors?
FURTHER SHADOW JUROR DISCUSSIONS
MR. KEN CONNOR: We - we are. I don’t know if
you want - when you want to give your instructions to the
shadow jurors.
JUDGE: Well, are they in here?
MR. ANSPACH: No - no.
JUDGE: Okay, all right, why don’t you do this for
me, um, can you - would you mind writing out a draft of
what I...
MR. ANSPACH: I would be happy to.
JUDGE: And then I’ll let them look at it to make sure
it covers everything and then what I would like to do is
seat the jurors, because once they’re announced and put
in the jury box, they’ll then be moved when they leave,
out through here and go to the jury room and then at that
time, I’d like to address it with the shadow jurors.

51a
Appendix E
MR. KEN CONNOR: That would be fine.
JUDGE: Okay?
MR. KEN CONNOR: Yes.
JUDGE: And that - whoever would need to make sure
they’re available. I don’t know who that person is because
this is all...

